<html>
<title> - OVERSIGHT OF THE NETWORKING AND INFORMATION TECHNOLOGY RESEARCH AND DEVELOPMENT (NITRD) PROGRAM</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                      OVERSIGHT OF THE NETWORKING
                  AND INFORMATION TECHNOLOGY RESEARCH
                    AND DEVELOPMENT (NITRD) PROGRAM

=======================================================================


                                HEARING

                               BEFORE THE

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 31, 2008

                               __________

                           Serial No. 110-119

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                                 ______


                     U.S. GOVERNMENT PRINTING OFFICE

43-688 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              ROSCOE G. BARTLETT, Maryland
BRAD MILLER, North Carolina          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            FRANK D. LUCAS, Oklahoma
NICK LAMPSON, Texas                  JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           TOM FEENEY, Florida
LAURA RICHARDSON, California         RANDY NEUGEBAUER, Texas
PAUL KANJORSKI, Pennsylvania         BOB INGLIS, South Carolina
STEVEN R. ROTHMAN, New Jersey        DAVID G. REICHERT, Washington
JIM MATHESON, Utah                   MICHAEL T. MCCAUL, Texas
MIKE ROSS, Arkansas                  MARIO DIAZ-BALART, Florida
BEN CHANDLER, Kentucky               PHIL GINGREY, Georgia
RUSS CARNAHAN, Missouri              BRIAN P. BILBRAY, California
CHARLIE MELANCON, Louisiana          ADRIAN SMITH, Nebraska
BARON P. HILL, Indiana               PAUL C. BROUN, Georgia
HARRY E. MITCHELL, Arizona           VACANCY
CHARLES A. WILSON, Ohio
ANDRE CARSON, Indiana

                            C O N T E N T S

                             July 31, 2008

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Bart Gordon, Chairman, Committee on 
  Science and Technology, U.S. House of Representatives..........     7
    Written Statement............................................     8

Statement by Representative Ralph M. Hall, Minority Ranking 
  Member, Committee on Science and Technology, U.S. House of 
  Representatives................................................     9
    Written Statement............................................     9

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Committee on Science and Technology, U.S. House of 
  Representatives................................................    10

Prepared Statement by Representative Harry E. Mitchell, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    11

                               Witnesses:

Dr. Christopher L. Greer, Director, National Coordination Office 
  for Networking and Information Technology Research and 
  Development (NCO/NITRD)
    Oral Statement...............................................    11
    Written Statement............................................    13
    Biography....................................................    26

Dr. Daniel A. Reed, Director, Scalable and Multicore Computing, 
  Microsoft Corporation
    Oral Statement...............................................    26
    Written Statement............................................    28
    Biography....................................................    35

Dr. Craig A. Stewart, Chair, Coalition for Academic Scientific 
  Computing; Associate Dean, Research Technologies, Indiana 
  University
    Oral Statement...............................................    36
    Written Statement............................................    37
    Biography....................................................    41

Mr. Don C. Winter, Vice President, Engineering and Information 
  Technology, Phantom Works, the Boeing Company
    Oral Statement...............................................    42
    Written Statement............................................    44
    Biography....................................................    48

Discussion.......................................................    48

              Appendix: Answers to Post-Hearing Questions

Dr. Christopher L. Greer, Director, National Coordination Office 
  for Networking and Information Technology Research and 
  Development (NCO/NITRD)........................................    58

Dr. Daniel A. Reed, Director, Scalable and Multicore Computing, 
  Microsoft Corporation..........................................    64

Dr. Craig A. Stewart, Chair, Coalition for Academic Scientific 
  Computing; Associate Dean, Research Technologies, Indiana 
  University.....................................................    67

Mr. Don C. Winter, Vice President, Engineering and Information 
  Technology, Phantom Works, the Boeing Company..................    70


  OVERSIGHT OF THE NETWORKING AND INFORMATION TECHNOLOGY RESEARCH AND 
                      DEVELOPMENT (NITRD) PROGRAM

                              ----------                              


                        THURSDAY, JULY 31, 2008

                  House of Representatives,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:03 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Bart Gordon 
[Chairman of the Committee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                      Oversight of the Networking

                  and Information Technology Research

                      Development (NITRD) Program

                        thursday, july 31, 2008
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

1. Purpose

    On Thursday, July 31, 2008, the Committee on Science and Technology 
will hold an oversight hearing to review the multi-agency, coordinated 
Networking and Information Technology Research and Development (NITRD) 
program. The hearing will examine the current program in light of the 
recent assessment of the President's Council of Advisors on Science and 
Technology (PCAST) and explore whether additional legislative 
adjustments to the program are needed.

2. Witnesses

Dr. Chris L. Greer, Director, National Coordination Office for 
Networking and Information Technology Research and Development (NCO/
NITRD).
    The NCO/NITRD provides staff support for the subcommittees and 
working groups of the National Science and Technology Council that are 
responsible for planning and coordinating the NITRD program and serves 
as the interface with the public for the NITRD program.

Dr. Daniel A. Reed, Director of Scalable and Multicore Computing, 
Microsoft.
    Dr. Reed is a member of PCAST and of the PCAST committee that 
carried out the recent assessment of the NITRD program. He previously 
served as a member of the President's Information Technology Advisory 
Committee.

Dr. Craig Stewart, Associate Dean, Research Technologies, Indiana 
University, and representing the Coalition for Academic Scientific 
Computation (CASC).
    CASC members are academic and government computer centers that 
support computational research in science and engineering and that are 
involved in applications requiring high-performance computers and 
networks and advanced software development.

Mr. Don C. Winter, Vice President--Engineering and Information 
Technology, Phantom Works, the Boeing Company.
    Mr. Winter has been involved in a planning effort with others from 
industry and academia to develop a research agenda and roadmap in the 
area of cyber-physical systems, which is one of the key research areas 
the PCAST assessment calls out for increased funding under the NITRD 
program.

3. Overarching Questions

        <bullet>  Do the objectives of the NITRD program address the 
        most important information technology R&D issues? Are the R&D 
        objectives prioritized and are the resources allocated 
        appropriately to achieve the objectives?

        <bullet>  Are there significant research opportunities that the 
        NITRD program is not pursuing?

        <bullet>  Is the overall funding level for the NITRD program 
        adequate for maintaining U.S. leadership in this important 
        technology field?

        <bullet>  Are any changes needed to the planning, coordination, 
        and prioritization mechanisms of the NITRD program in order to 
        make them function more effectively?

        <bullet>  Does the research community--both academe and 
        industry--have a voice in influencing the research priorities 
        under the NITRD program? Are improvements needed in the 
        external advisory process for the NITRD program?

        <bullet>  Do the recommendations of the recent PCAST assessment 
        of the NITRD program encompass all of the key issues necessary 
        to make the NITRD program more effective and relevant to 
        research needs and opportunities in information technology?

4. Background

NITRD Program
    The High-Performance Computing Act of 1991 (P.L. 102-194), which 
the Science and Technology Committee was instrumental in enacting, 
authorized a multi-agency research program, called the High Performance 
Computing and Communications program, to accelerate progress in the 
advancement of computing and networking technologies and to support 
leading edge computational research in a range of science and 
engineering fields. The name of the program has evolved to the 
Networking and Information Technology Research and Development (NITRD) 
program. The statute established a set of mechanisms and procedures to 
provide for the interagency planning, coordination, and budgeting of 
the research and development activities carried out under the program.
    For FY 2009, 13 federal agencies will contribute funding to the 
NITRD program and additional agencies that do not contribute funding 
participate in planning activities. The FY 2009 budget request for the 
NITRD program is $3.548 billion, an increase of $0.207 billion or 
approximately six percent, over the FY 2008 level of $3.341 billion. A 
summary of the major research components of the program and funding 
levels by major component and by agency is available at: http://
www.nitrd.gov/pubs/2009supplement/index.htm

Assessment of NITRD by the President's Council of Advisors on Science 
        and Technology (PCAST)
    P.L. 102-194 provided for an external advisory committee for the 
NITRD program. A subsequent executive order created the President's 
Information Technology Advisory Committee (PITAC). The current 
Administration allowed that committee to expire and in its place 
assigned the advisory function for the NITRD program to PCAST. Last 
August PCAST completed an assessment of the NITRD program and issued a 
report, ``Leadership Under Challenge: Information Technology R&D in a 
Competitive World'' [http://www.nitrd.gov/pcast/reports/PCAST-NIT-
FINAL.pdf].
    The PCAST report includes several findings and recommendations 
related to the research content of the program, as well as suggestions 
for improving the program's planning, prioritization and coordination. 
The recommendations from the PCAST report include:

        <bullet>  Federal agencies should rebalance their NITRD funding 
        portfolios by increasing support for important problems that 
        require larger-scale, longer-term, multi-disciplinary R&D and 
        increasing emphasis on innovative and therefore higher-risk but 
        potentially higher-payoff explorations.

        <bullet>  As new funding becomes available for the NITRD 
        program, disproportionately larger increases should go for:

                  research on NIT systems connected with the physical 
                world (which are also called embedded, engineered, or 
                cyber-physical systems);

                  software R&D;

                  a national strategy and implementation plan to 
                assure the long-term preservation, stewardship, and 
                widespread availability of data important to science 
                and technology; and

                  networking R&D, including upgrading the Internet and 
                R&D in mobile4networking technologies.

        <bullet>  The NITRD agencies should:

                  develop, maintain, and implement a strategic plan 
                for the NITRD program;

                  conduct periodic assessments of the major components 
                of the NITRD program and restructure the program when 
                warranted;

                  develop, maintain, and implement public R&D plans or 
                roadmaps for key technical areas that require long-term 
                interagency coordination and engagement; and

                  develop a set of metrics and other indicators of 
                progress for the NITRD program, including an estimate 
                of investments in basic and applied research, and use 
                them to assess NITRD program progress.

        <bullet>  The NITRD National Coordination Office should support 
        the development, maintenance, and implementation of the NITRD 
        strategic plan and R&D plans for key technical areas; and it 
        should be more proactive in communicating with outside groups.

Cyber-Physical Systems
    The top recommendation of the PCAST report for new research 
investments in the NITRD program is in the area of computer-driven 
systems connected with the physical world--also called embedded, 
engineered, or cyber-physical systems (CPS). CPS are connected to the 
physical world through sensors and actuators to perform crucial 
monitoring and control functions. Such systems would include the air-
traffic-control system, the power-grid, water-supply systems, and 
industrial process control systems. On a more individual level, they 
are found in automobiles and home health care devices.
    Examples of CPS are already in widespread use but growing demand 
for new capabilities and applications will require significant 
technical advances. Such systems can be difficult and costly to design, 
build, test, and maintain. They often involve the intricate integration 
of myriad networked software and hardware components, including 
multiple subsystems. In monitoring and controlling the functioning of 
complex, fast-acting physical systems (such as medical devices, weapons 
systems, manufacturing processes, and power-distribution facilities), 
they must operate reliably in real time under strict constraints on 
computing, memory, power, speed, weight, and cost. Moreover, most uses 
of cyber-physical systems are safety-critical: they must continue to 
function even when under attack or stress.
    There is evidence that CPS will be an area of international 
economic competition. For example, the European Union's Advanced 
Research and Technology for Embedded Intelligence and Systems (ARTEMIS) 
program, funded by a public-private investment of 5.4 billion euros 
(over $7 billion in mid-2007 dollars) between 2007 and 2013, is 
pursuing R&D to achieve ``world leadership in intelligent electronic 
systems'' by 2016.

Recent Amendments to P.L. 102-194 [included in COMPETES Act]
    In 1999, the PITAC released an assessment of the NITRD program 
(``Information Technology Research: Investing in Our Future'') that 
found the research sponsored to be migrating too much toward support 
for near-term, mission focused objectives; that found a growing gap 
emerging between the power of high-performance computers available to 
support agency mission requirements versus support for the general 
academic research community; and that found the total federal 
information technology investment inadequate. In response to that 
report, the Committee developed legislation that passed the House in 
similar form in the 108th (H.R. 4218) and 109th (H.R. 28) Congresses, 
but failed to be picked up in the Senate. It was finally incorporated 
in the COMPETES Act (section 7024(a) ) in this Congress.
    The COMPETES Act amends the 1991 Act in several ways:

         Program Planning. Specifies that the external advisory 
        committee for the program, which must be re-constituted as a 
        separate stand-alone committee, must carry out biennial reviews 
        of the funding, content and management of the interagency R&D 
        program and report its findings to Congress. Also, the annual 
        report on the program prepared by the OSTP Director must now 
        describe how the program has been modified in response to 
        advisory Committee's recommendations.

         High-End Computing. Requires OSTP to develop and maintain a 
        roadmap for developing and deploying very high-performance 
        computing (high-end) systems necessary to ensure that the U.S. 
        research community has sustained access to the most capable 
        computing systems.

         Large Scale Applications. Clarifies that Grand Challenge 
        problems supported under the interagency program are intended 
        to involve multi-disciplinary teams of researchers working on 
        science and engineering problems that demand the most capable 
        high performance computing and networking resources. Consistent 
        with this requirement, the language also specifies that 
        provision for access to high performance computing systems 
        includes technical support to users of these systems.

5. Witness Questions

    Dr. Greer was asked to provide an overview of the current planning 
and coordination mechanisms of the NITRD program, along with any 
recommendations on how to improve their effectiveness; a description of 
any actions by the NITRD agencies that have been taken, or that are in 
the planning stages, in response to the recommendations of the PCAST 
report; a description of the role of the National Coordination Office 
in supporting the activities of the NITRD program; and his response to 
the findings and recommendations of the PCAST report related to the 
functioning of the NCO.
    The other witnesses were asked to review and comment on the 
findings and recommendations contained in the PCAST report regarding 
both the administration and planning for the NITRD program and also the 
research priorities that the program should address. They were asked 
for their views on the merit of these recommendations and on what they 
see as the key steps to take that would strengthen the NITRD program, 
including any issues not addressed by the PCAST report.
    Mr. Winter was particularly asked to provide his views on the PCAST 
recommendation related to the need for the NITRD program to place 
greater emphasis on research on cyber-physical systems.
    Chairman Gordon. I want to welcome everyone to this 
morning's hearing to review the federal, interagency research 
initiative in networking and information technology, known as 
the NITRD program.
    Information technology is a major driver of economic 
growth. It creates high-wage jobs, provides for rapid 
communication throughout the world, and provides the tools for 
acquiring knowledge and insight from information. Advances in 
computing and communications have a broad impact. For example, 
information technology helps to make the workplace more 
productive, to improve the quality of health care, and to make 
government more responsive and accessible to the needs of our 
citizens. In short, networking and information technology is an 
essential component of U.S. scientific, industrial, and 
military competitiveness.
    Vigorous long-term research is essential to realize the 
potential benefits of information technology. Many of the 
technical advances that led to today's computers and the 
Internet resulted from federally sponsored research, in 
partnership with industry and universities.
    The depth and strength of U.S. capabilities in information 
technology stem in part from the sustained research and 
development program carried out by the federal research 
agencies under a program codified by the High-Performance 
Computing Act of 1991. The Science and Technology Committee has 
a long history of encouragement and support for research on 
information technologies and played a prominent role in the 
development and passage of the 1991 Act.
    The Act created a multi-agency R&D program to accelerate 
the development of information technology and to attack 
challenging computational science and engineering problems. 
Also, it put in place a formal process for planning and 
budgeting for the activities carried out under what is now 
known as the NITRD program.
    The fiscal year 2008 budget for this interagency program is 
$3.3 billion. The agencies providing the largest portions of 
this funding are the Department of Defense, the National 
Science Foundation, the Department of Energy, and the National 
Institutes of Health.
    I believe the NITRD program has been largely a success. It 
has made a substantial contribution to moving computation to an 
equal place along side theory and experiment for conducting 
research in science and engineering.
    Moreover, it has developed the computing and networking 
infrastructure needed to support leading edge research and to 
drive the technology forward for a range of commercial 
applications that benefit society broadly.
    The President's Council of Advisors on Science and 
Technology, the PCAST, recently carried out an assessment of 
the NITRD program. This assessment raises some significant 
issues about whether the NITRD program is allocating its 
resources in ways to achieve the maximum payoffs. PCAST makes a 
series of recommendations that identify research areas needing 
additional resources and suggests that the modes of research 
support provided by the program are less than optimum.
    In particular, PCAST believes that the NITRD program should 
provide more of its funding for conducting high-risk/high-
reward research and support more large-scale, interdisciplinary 
research projects. It also recommends that the NITRD program 
institute a strategic planning process to strengthen priority 
setting under the program. I believe that PCAST raises issues 
that need to be seriously considered and then addressed, as 
appropriate, through the legislative adjustments to the NITRD 
authorizing statute. This hearing is the first step in a 
process, which the Committee will conduct next year.
    To assist us in the development of legislation, this 
hearing provides the opportunity to receive the views of expert 
witnesses on the findings and recommendations of the PCAST 
assessment of the NITRD program. I am also interested in any 
comments or suggestions the witnesses may have on other aspects 
of the program that are not covered by the PCAST assessment but 
would lead to a more effective program.
    I want to thank our witnesses for their attendance at this 
hearing and look forward to our discussions.
    [The prepared statement of Chairman Gordon follows:]
               Prepared Statement of Chairman Bart Gordon
    I want to welcome everyone to this morning's hearing to review the 
federal, interagency research initiative in networking and information 
technology, known as the NITRD [``ny-ter D''] program.
    Information technology is a major driver of economic growth. It 
creates high-wage jobs, provides for rapid communication throughout the 
world, and provides the tools for acquiring knowledge and insight from 
information.
    Advances in computing and communications have broad impact. For 
example, information technology helps to make the workplace more 
productive, to improve the quality of health care, and to make 
government more responsive and accessible to the needs of our citizens.
    In short, networking and information technology is an essential 
component of U.S. scientific, industrial, and military competitiveness.
    Vigorous long-term research is essential for realizing the 
potential benefits of information technology. Many of the technical 
advances that led to today's computers and the Internet resulted from 
federally sponsored research, in partnership with industry and 
universities.
    The depth and strength of U.S. capabilities in information 
technology stem in part from the sustained research and development 
program carried out by federal research agencies under a program 
codified by the High-Performance Computing Act of 1991. The Science and 
Technology Committee has a long history of encouragement and support 
for research on information technologies and played a prominent role in 
the development and passage of the 1991 Act.
    The Act created a multi-agency R&D program to accelerate the 
development of information technology and to attack challenging 
computational science and engineering problems. Also, it put in place a 
formal process for planning and budgeting for the activities carried 
out under the NITRD program.
    The Fiscal Year 2008 budget for this interagency program is $3.3 
billion. The agencies providing the largest portions of this funding 
are the Department of Defense, the National Science Foundation, the 
Department of Energy, and the National Institutes of Health.
    I believe the NITRD program has been largely a success. It has made 
a substantial contribution to moving computation to an equal place 
along side theory and experiment for conducting research in science and 
engineering.
    Moreover, it has developed the computing and networking 
infrastructure needed to support leading edge research and to drive the 
technology forward for a range of commercial applications that benefit 
society broadly.
    The technical advances that led to today's computing devices and 
networks, and the software that drive them, evolved from past research 
sponsored by industry and government, often in partnership, and 
conducted by industry, universities, and federal labs.
    The President's Council of Advisors on Science and Technology--the 
PCAST--recently carried out an assessment of the NITRD program. This 
assessment raises some significant issues about whether the NITRD 
program is allocating its resources in ways to achieve the maximum 
payoffs.
    PCAST makes a series of recommendations that identify research 
areas needing additional resources and suggests that the modes of 
research support provided by the program are less than optimum.
    In particular, PCAST believes that the NITRD program should provide 
more of its funding for conducting high-risk/high-reward research and 
support more large scale, interdisciplinary research projects. It also 
recommends that the NITRD program institute a strategic planning 
process to strengthen priority setting under the program.
    I believe that PCAST raises issues that need to be seriously 
considered and then addressed, as appropriate, through legislative 
adjustments to the NITRD authorizing statute. This hearing is the first 
step in a process, which the Committee will conclude next year.
    To assist us in the development of legislation, this hearing 
provides the opportunity to receive the views of expert witnesses on 
the findings and recommendations of the PCAST assessment of the NITRD 
program.
    I am also interested in any comments or suggestions the witnesses 
may have on other aspects of the program that are not covered by the 
PCAST assessment, but which could lead to a more effective program.
    I want to thank our witnesses for their attendance at this hearing 
and look forward to our discussion.

    Chairman Gordon. And now I recognize my friend, Mr. Hall, 
for his opening statement.
    Mr. Hall. Thank you, Chairman Gordon, for scheduling the 
oversight hearing of the NITRD Program. Of course, this program 
provides the primary mechanism by which the Federal Government 
coordinates this nation's more than $3 billion of unclassified 
networking information technology research and development 
investments, and you are absolutely correct in highlighting the 
PCAST report. To boil it down they simply said, ``It is 
essential to U.S. economic prosperity, security, and quality of 
life.'' So given the ever-increasing amounts of networking and 
information technology that affect our everyday lives from 
power grid and water purification systems to automotive 
improvements and air traffic control equipment to home health 
care devices and educational software programs, it is important 
that we not only continue to support these R&D efforts but also 
make sure that this program is appropriately coordinating with 
our classified Cyber Security Initiatives as well. In fact, I 
believe that this is of vital importance to our homeland 
security and to our economy.
    We have before us today an esteemed panel of NIT experts, 
and I look forward to hearing their views and how to make an 
already exemplary interagency program even better, and I yield 
back my time.
    [The prepared statement of Mr. Hall follows:]
           Prepared Statement of Representative Ralph M. Hall
    Thank you Chairman Gordon for scheduling this oversight hearing on 
the NITRD program. This program provides the primary mechanism by which 
the Federal Government coordinates this nation's more than three 
billion dollars of unclassified networking and information technology 
(NIT) research and development (R&D) investments.
    The United States is the global leader in NIT, and I agree with the 
authors of the PCAST Report on this issue when they say that our 
continued leadership ``is essential to U.S. economic prosperity, 
security, and quality of life.''
    Given the ever increasing amounts of networking and information 
technology that affect our everyday lives from power grid and water 
purification systems to automotive improvements and air traffic control 
equipment to home health-care devices and educational software 
programs, it is important that we not only continue to support these 
R&D efforts but also make sure that this program is appropriately 
coordinating with our classified cyber security initiatives as well. In 
fact, I believe that this is of vital importance to our homeland 
security and to our economy.
    We have before us today an esteemed panel of NIT experts, and I 
look forward to hearing their views on how to make an already exemplary 
interagency program even better.

    Chairman Gordon. Thank you, Mr. Hall. At this time we 
normally ask that Members who want to submit their opening 
statements, but since Mr. Sensenbrenner, because of his new 
status, we will allow him to make any statements that he would 
like to at this time.
    Mr. Sensenbrenner. Mr. Sensenbrenner is a man of few words 
unless they are really necessary. Not this morning. I thank the 
Chair.
    Chairman Gordon. All right. If that is the case, then if 
Members would like to submit additional opening statements, 
they will be added to the record at this point.
    [The prepared statement of Ms. Johnson follows:]
       Prepared Statement of Representative Eddie Bernice Johnson
    Good morning, Mr. Chairman and Ranking Member.
    Today's hearing on oversight of the Networking and Information 
Technology Research and Development (NITRD) Program is important.
    The Committee on Science and Technology is tasked with the 
important activity of seeing that our federal resources are allocated 
responsibly.
    Investment in information technology is important to our nation, 
and it is important to Texas.
    Texas Instruments, located in Dallas, has been a leader in 
information technology. Our state has been a welcoming place for high-
tech development, as is evidenced by cities like Austin, Dallas and 
Houston gaining reputation as high-tech hubs.
    The President's Council of Advisors on Science and Technology 
recently assessed the NITRD Program, and today's hearing will be 
important to determine whether the objectives of the program address 
the most important information technology R&D issues facing our nation.
    We need to know if this program's research objectives are 
prioritized well, and whether currently allocated resources are 
appropriate to achieve these objectives.
    It is the Committee's distinct honor to have witnesses representing 
the NITRD program, as well as the President's Council of Advisors on 
this issue, as well as academic and industry representatives who can 
offer unique perspectives.
    Computer networking has become very sophisticated. Systems of 
computerized sensors perform crucial monitoring and control functions. 
Such systems include the air-traffic-control system, the power-grid, 
water-supply systems, and industrial process control systems. On a more 
individual level, they are found in automobiles and home health care 
devices.
    Our nation must continue to innovate and stay at the leading edge 
of this kind of technology. Other nations are currently investing 
heavily in this activity and are gaining competitive ground.
    Take, for example, the European Union's Advanced Research and 
Technology for Embedded Intelligence and Systems (ARTEMIS) program.
    This effort is funded by a public-private investment of 5.4 billion 
euros (over $7 billion in mid-2007 dollars) between 2007 and 2013, is 
pursuing research to achieve ``world leadership in intelligent 
electronic systems'' by 2016.
    President's Council of Advisors on Science and Technology have 
provided guidance on how our NITRD program should move forward.
    Principal among their recommendations is the suggestion to 
rebalance agency funding portfolios to support more long-term projects, 
as well as research that is considered to be high-risk.
    The Council also advised that greater proportions of funding should 
go toward research in networking information technology systems that 
are connected with the physical world; and for mobile networking 
technologies.
    In addition, the Council urged agencies to implement a strategic 
plan for the NITRD program; and they should develop metrics to assess 
the progress of investments in research in these areas.
    I want to thank the Council for their work to assess the NITRD 
program.
    I hope that the recommendations, as well as this hearing, will help 
the Science Committee continue to be a good steward when it comes to 
allocation of funds for computer networking research.

    [The prepared statement of Mr. Mitchell follows:]
         Prepared Statement of Representative Harry E. Mitchell
    Thank you, Mr. Chairman.
    Today we will examine current status of the Networking and 
Information Technology Research and Development (NITRD) program.
    In 1999, an assessment of the NITRD program by the President's 
Information Technology Advisory Committee (PITAC) concluded that the 
research sponsored by NITRD focused too much on near-term, mission 
focused objects.
    In response, a provision in the America COMPETES Act, legislation 
that was drafted by this committee and now public law, aims to ensure 
that the NITRD supports large scale applications.
    I look forward to hearing more today from our witnesses about what 
other legislative changes are necessary to the NITRD program.
    I yield back.

    Chairman Gordon. At this time I would like to introduce our 
witnesses, and we have a very distinguished group here. First, 
Dr. Chris Greer is the Director of NITRD National Coordination 
Office. Welcome. Dr. Daniel Reed is the Director of Scalable 
and Multicore Computing at Microsoft. Dr. Craig Stewart is 
Associate Dean of Research Technologies at Indiana University. 
He is representing the Coalition for Academic Scientific 
Computation. And finally, Dr. Don Winter is the Vice President 
of Engineering and Information Technology for the Phantom 
Works, Boeing Company.
    Our witnesses should note we try to limit our spoken 
testimony to five minutes each which then Members will have an 
opportunity to question for five minutes. But this is an 
important topic. We have Members at a variety of other hearings 
today, and so we want to be sure we get all the information so 
please feel free to again, if you need a few more minutes to 
give us what you think is best, we want to hear from that.
    At this point, let us start with Dr. Greer.

   STATEMENT OF DR. CHRISTOPHER L. GREER, DIRECTOR, NATIONAL 
 COORDINATION OFFICE FOR NETWORKING AND INFORMATION TECHNOLOGY 
              RESEARCH AND DEVELOPMENT (NCO/NITRD)

    Dr. Greer. Good morning. I am Chris Greer, and I am 
Director of the National Coordination Office for Networking and 
Information Technology Research and Development, the NITRD 
Program. I want to thank Chairman Gordon, Ranking Member Hall, 
and the Members of the Committee for the opportunity to come 
here today to discuss this important issue with you. I am also 
accompanied by a number of members seated behind me of the NCO 
NITRD staff, and it is an honor to sit here and represent the 
remarkable work of that group. And I commend this committee for 
initiating the High-Performance Computing Act of 1991 and its 
subsequent amendments, with its remarkably far-sighted mandate 
for R&D coordination. The resulting federal program now in its 
17th year has become a model for multi-agency cooperation. The 
program has grown substantially in size and scope since 1991. 
Today NITRD encompasses $3.5 billion in R&D across 13 member 
agencies as of the President's 2009 budget.
    NITRD investments further our nation's goals for national 
defense and national security, health care, energy, education, 
economic competitiveness, environmental sustainability, and 
other national priorities.
    My written testimony provides detailed responses to the 
questions the Committee asked me to address. In my remarks 
today, I want to highlight strategic planning. This is NITRD's 
main program-wide coordination activity, and Appendix 3 of that 
written testimony provides a detailed timeline for that 
strategic planning and road mapping process. But in fact, even 
if the PCAST, the President's Council Advisors on Science and 
Technology, hadn't recommended that NITRD develop a strategic 
plan, it would still be the right time in the program's history 
to consider where NITRD is going and how we can better manage 
that journey.
    The networking and IT landscape is shifting rapidly, and 
major new national challenges are emerging. The program has 
recently been tasked, for example, with expanded coordination 
responsibilities under the federal plan for advanced networking 
R&D, and the Administration's comprehensive National Cyber 
Security Initiative. The PCAST assessment of NITRD with its 
provocative and important focus on rising global competition 
for networking and IT leadership sharpens our thinking about 
the role of strategic planning and shaping NITRD growth and 
change to meet national needs. The PCAST report's 17 
recommendations, seven of which go to the issue of planning, 
provide a unique opportunity to make progress toward our goals. 
The NITRD Subcommittee last November approved development of a 
comprehensive strategic plan for NITRD and authorized my office 
to add a technical staff member dedicated to support of that 
activity.
    The NITRD Subcommittee has agreed that the plan should be 
first vision driven with the theme of complexity and multiple 
dimensions. Second, focused on goals and capabilities that can 
only be achieved through interagency cooperation and 
coordination and the R&D capabilities and challenges required 
to achieve those goals. It should also be predictive of an 
effective organizational structure for the NITRD program.
    As shown on the timeline in my written testimony, NITRD's 
strategic planning task group is working intensively on the 
plan now, including steps to solicit broad, private-sector 
input to the planning process.
    A request for input has just now been published in the 
Federal Register and widely disseminated to academia, to 
industry, and to professional organizations. A national 
workshop planned for November 2008 will provide a second 
opportunity for public input, and the final draft will be 
posted for public comment in early 2009.
    That timeline also shows that PCAST recommendations on 
assessing the alignment of the NITRD research areas initiating 
an NCO plan to support the overall planning process, and 
preparing a fast-track education study are also being 
addressed.
    Other PCAST recommendations will be integrated into the 
NITRD planning enterprise as the comprehensive strategic plan 
takes shape and provides the larger context. Upon completion of 
this strategic plan, we anticipate providing a point-by-point 
response to the PCAST recommendations informed and supported by 
that plan.
    We agree with PCAST that leadership in networking and 
information technology is essential to U.S. economic 
prosperity, security, and quality of life. The federal 
investments that we make in research and development in this 
area are the keys to a future of promise for our nation and for 
its citizens.
    I look forward to working with the Congress to fulfill that 
promise. Thank you.
    [The prepared statement of Dr. Greer follows:]
               Prepared Statement of Christopher L. Greer
    Good morning. My name is Chris Greer and I am Director of the 
National Coordination Office (NCO) for Networking and Information 
Technology Research and Development (NITRD). With my colleague, Dr. 
Jeannette Wing of the National Science Foundation (NSF), I co-chair the 
NITRD Subcommittee of the National Science and Technology Council's 
(NSTC) Committee on Technology. I want to thank Chairman Gordon, 
Ranking Member Hall, and the Members of the Committee for the 
opportunity to come before you today to discuss the Federal 
Government's multi-agency NITRD effort.
    The NITRD Program--now in its 17th year--represents the Federal 
Government's portfolio of unclassified investments in fundamental, 
long-term research and development (R&D) in advanced networking and 
information technology (IT), including high-end computing, large-scale 
networking, cyber security and information assurance, human-computer 
interaction, information management, high-confidence software and 
systems, software design, and socioeconomic, education and workforce 
implications of IT. NITRD research is performed in universities, 
federal research centers and laboratories, federally funded R&D 
centers, private companies, and nonprofit organizations across the 
country. Agencies participating in the NITRD program--including 13 
member agencies and a number of other participating agencies and 
offices--support vital investments in R&D and research infrastructure 
to further our nation's goals for national defense and national 
security, health care, energy, education, economic competitiveness, 
environmental sustainability, and other national priorities. Through 
the NITRD program, federal agencies work together to ensure that the 
impact of their efforts is greater than the sum of their individual 
investments. This is accomplished through interaction across the 
government, academic, commercial, and international sectors using 
cooperation, coordination, information sharing, and joint planning to 
identify critical needs, avoid duplication of effort, maximize resource 
sharing, and partner in investments to pursue higher-level goals.

Mandate for coordination

    Seventeen years ago, when Congress passed the bipartisan High-
Performance Computing (HPC) Act of 1991 (Public Law 102-194), the Act's 
mandate for interagency coordination of federal networking and IT R&D 
was remarkably farsighted. The Act established a powerful, resilient 
framework for federal networking and IT R&D activities. That framework 
combined ambitious research goals with specific requirements for 
interagency cooperation, collaboration, and partnerships with industry 
and academia. The validation of the HPC Act's core vision can be found 
in the success and vitality of today's NITRD Program, which has become 
a model for coordination across federal agencies.
    The HPC Act was amended by the Next Generation Internet Research 
Act of 1998 (Public Law 105-305) and the America COMPETES Act of 2007 
(Public Law 110-69). These Acts extended the scope of responsibilities 
for interagency coordination to include human-centered systems; 
flexible, extensible, inter-operable, and accessible network 
technologies and implementations; education, training, and human 
resources; and other areas. As a result, the NITRD Program now provides 
for cooperation and coordination across a broad landscape, allowing it 
to tackle the inherently multi-disciplinary, multi-technology, and 
multi-sector challenges of today's networking and IT research horizons.
    The Office of Science and Technology Policy (OSTP), with the 
support of the Office of Management and Budget (OMB) and the 
participating NITRD agencies, has taken a vigorous approach to 
implementing the enabling NITRD legislation. The NCO Director is a 
member of the OSTP technical staff group with direct access to and 
active support by OSTP and OMB staff and leadership. In addition to 
their financial contributions, the participating agencies provide the 
time of some of their most capable experts and senior managers to 
pursue NITRD goals. The success of NITRD is due in large measure to the 
dedication and commitment of those who implement the program.

Program history in brief

    In its first annual report to the Congress, the then-High 
Performance Computing and Communications (HPCC) Program reported an 
estimated 1991 multi-agency budget of $489.4 million and a proposed 
1992 budget of $638.3 million. Eight federal agencies were represented 
in that budget: Defense Advanced Research Projects Agency (DARPA), 
Department of Energy (DOE), Environmental Protection Agency (EPA), 
National Aeronautics and Space Administration (NASA), National 
Institutes of Health (NIH), National Institute of Standards and 
Technology (NIST), National Oceanic and Atmospheric Administration 
(NOAA), and National Science Foundation (NSF). The HPCC program had 
four major research areas called Program Component Areas (PCAs): High 
Performance Computing Systems (HPCS); Advanced Software Technology and 
Algorithms (ASTA); National Research and Education Network (NREN); and 
Basic Research and Human Resources (BRHR).
    Since 1991, the Federal IT R&D program has evolved continuously, 
addressing the continuing, dramatic expansion in computing and 
networking technologies, applications, and societal needs by adjusting 
the research focus and adding new, emerging areas of interest. This 
includes disaggregating investments in high-end computing 
infrastructure and applications from those in high-end computing (HEC) 
systems and system software research, and adding software design and 
productivity, high-confidence software and systems, and societal and 
workforce implications of IT.
    Today, the NITRD Program, which is successor to the original HPCC 
Program, encompasses $3.5 billion (2009 Budget Request) in R&D funding 
and comprises 13 member agencies--the original eight agencies plus 
Agency for Healthcare Research and Quality (AHRQ), National Archives 
and Records Administration (NARA), Department of Energy/National 
Nuclear Security Administration (DOE/NNSA), National Security Agency 
(NSA), and Office of the Secretary of Defense and Department of Defense 
Service research organizations (OSD and DOD Service research 
organizations). About a dozen other agencies that are not formal NITRD 
members also participate in the eight Program Component Areas (PCAs) 
and other NITRD activities. (See Appendix 1 on page 14 for a list of 
the current NITRD agencies and PCAs and a NITRD organizational chart.)

Response to the Committee Request

    The invitation to testify from this House Committee included a 
request to address three topic areas. Responses are provided in the 
numbered sections that follow.

Request #1: Current planning and coordination overview
    The NITRD Program uses five general mechanisms to pursue its 
mission:

        (1)  Monthly meetings of the seven Federal Interagency Working 
        Groups (IWGs) and Coordinating Groups (CGs) chartered under the 
        auspices of the NSTC

        (2)  Workshops, most including private-sector as well as 
        federal participants

        (3)  Formal reports, including the annual NITRD Supplement to 
        the President's Budget and strategic planning documents

        (4)  Support for external studies and assessments

        (5)  Outreach to the federal and private sectors

    I'll illustrate how these are used with examples for each 
mechanism.
    In each NITRD Program Component Area (PCA), agencies work together 
in a CG or IWG that meets monthly to identify research needs, plan 
programs, share best practices, and review progress. These regular 
meetings allow groups to explore complex research and development 
challenges. As an example, the High Confidence Software and Systems 
(HCSS) CG is playing a leadership role in engaging researchers and 
industry in assessing the national research needs in the complex life- 
and safety-critical technologies called cyber-physical systems\1\ 
(defined here as IT embedded in and critical to the function of a 
physical system; aircraft avionics are an example). This analysis is 
being informed by a workshop series engaging the academic, commercial, 
and government sectors. Recent workshops in this series covered medical 
device software and systems, with participation by researchers, 
clinicians, hospital administrators, and industry representatives; 
another focused on automotive safety, engaging automobile designers, 
safety experts, and engineers and academic researchers. The next in the 
series, planned for Fall 2008, will focus on ``High Confidence Cyber-
Physical Transportation Systems: A look at the Commercial Aero, Auto, 
and Rail Sectors, and Military Ground and Aerial Unmanned Autonomous 
Vehicles (UAVs).''
---------------------------------------------------------------------------
    \1\ In its 2007 assessment of the NITRD Program, the President's 
Council of Advisors on Science and Technology (PCAST) termed cyber-
physical systems ``a national priority for Federal R&D.''
---------------------------------------------------------------------------
    During the 20-month period from October 2006 to May 2008, the NITRD 
Program planned and held a total of 27 workshops--an average of 1.5 
workshops per month. Topics include composable cyber systems, 
supervisory control and data acquisition (SCADA) systems for industrial 
process/system control, and an upcoming event on national and 
international networking research challenges. An ongoing series, the 
Collaborative Expedition Workshops, covers wide-ranging topics such as 
virtual work settings, evaluation of emerging technology and technology 
development programs, and scalable data management.
    Formal reports produced during this same 20-month period include 
the 2007 and 2008 NITRD Supplement to the President's Budget and the 
following strategic planning documents produced by ad hoc interagency 
task groups of NITRD member agencies and others:

         Federal Plan for Advanced Networking Research and Development

         On January 30, 2007, OSTP Director Jack Marburger established 
        an Interagency Task Force on Advanced Networking and charged it 
        with developing a strategic vision and long-range plan for 
        federal networking R&D; he requested that the initial draft of 
        the plan be completed in three months, by May 2007, to provide 
        timely input for the FY 2009 budget process. Through intensive 
        efforts, the 40-member task force of NITRD and other agency 
        representatives produced a draft on schedule, including a 
        detailed analysis of networking research challenges that has 
        been extremely well received. The Task Force continued to 
        refine the draft over the next 12 months; the final Federal 
        Plan for Advanced Networking Research and Development is now 
        being printed and will be sent to all Members of Congress 
        shortly. The preprint version of the Plan is available on the 
        NITRD Web site at: http://www.nitrd.gov/ITFAN-preprint-
        061108.pdf

         Plan for Coordination of Federal R&D and Plan for the Leap-
        Ahead Program of Research and Development

         In February 2008, OSTP called for an Interagency Task Force 
        from NITRD agencies and others to develop two research-related 
        planning documents on a fast-track basis under the 
        Comprehensive National Cybersecurity Initiative (CNCI), 
        established by National Security Presidential Directive 54/
        Homeland Security Presidential Directive 23 in January 2008. To 
        expedite quick turnaround on this tasking, the 21 task force 
        members divided into two groups. One developed the plan for 
        overall coordination of the federal cyber R&D portfolio; the 
        other crafted the ``Leap-Ahead'' plan for accelerating high-
        risk, high-return research to help maintain our technological 
        edge in cyberspace. These plans now provide the basis for the 
        recent launch of the CNCI R&D planning activities.

         Under the CNCI plans, the Cyber Security and Information 
        Assurance Interagency Working Group (CSIA IWG) chartered by the 
        NSTC in 2006--augmented by a new Senior Steering Group--is 
        tasked with two new assignments: leading the CNCI R&D 
        coordination activity including improving coordination between 
        the unclassified and classified Federal R&D sectors, and 
        coordinating the ``Leap-Ahead'' initiative. The CSIA IWG's 2006 
        Federal Plan for Cyber Security and Information Assurance 
        Research and Development provides a detailed technical baseline 
        for setting federal cyber R&D priorities under CNCI.

    The NITRD Program supports external studies and reviews to expand 
its perspectives and take advantage of expertise from a diversity of 
sources. A study by the National Academies is currently underway to 
develop a better understanding of the potential scientific and 
technological impact of high-end capability computing in science and 
engineering. Public release of the final report is expected in 
September 2008. The Program recently provided briefings and written 
inputs to the Networking and Information Technology Subcommittee of the 
President's Council of Advisors on Science and Technology (PCAST) for 
use in its assessment of the NITRD Program. Looking ahead, the Program 
developed a statement of work for the first of the fast-track studies 
on NIT post-secondary education called for by the PCAST assessment of 
NITRD.
    The NITRD Program uses a variety of mechanisms to reach out to 
researchers, private-sector developers, resource providers, and end-
users. Examples include two groups under the Large Scale Networking CG: 
the Joint Engineering Team (JET) and Middleware and Grid Infrastructure 
Coordination (MAGIC) group, which have academic and industry members; 
the Federal Agency Administration of Science and Technology Education 
and Research (FASTER) Community of Practice (CoP), which seeks 
exchanges of information with the private sector and new technologies 
to streamline the management of federal research; and the multi-sector 
NITRD research workshops held in all the PCAs.
    A number of efforts are underway to improve the effectiveness of 
NITRD planning and coordination. These include revamping the NITRD web 
site (both public and federal-only resources), providing improved web-
based services to support remote participation and digital content 
sharing, and outreach visits by NCO technical staff to academic and 
commercial organizations as a required component of regular conference 
travel.
    The high sustained level of collaborative engagement reflected in 
the diverse NITRD activities of the last two years is, in my judgment, 
a key measure of the effectiveness of the NITRD coordination model--it 
remains resilient amid the Program's increasing activities and 
expanding responsibilities. Another measure is the productive synergy 
gained through joint funding, partnerships with private-sector 
entities, and sometimes a combination of the two. For example:

Collaboration

Benchmarks for Federal HEC systems: The HEC agencies are collaborating 
to develop an interagency suite of HEC benchmarks that can accurately 
represent the demands of federal advanced computing applications.

IPv6 debugging: DOD, DOE/SC, and NASA are collaborating, in cooperation 
with the university networking consortium Internet2, in a project that 
is conducting end-to-end debugging, performance measurement, and 
toolset enhancement of Internet Protocol version 6 (IPv6) over DOD's 
Defense Research and Education Network (DREN), DOE/SC's Energy Sciences 
network (ESnet), and Internet2Net.

Environmental databases and data distribution: Through the Earth System 
Modeling Framework activity and related efforts, NITRD agencies (DOD, 
EPA, NASA, NOAA, NSF) continue their long-range cooperative work to 
expand the inter-operability and usability of diverse models and large-
scale data sets for weather, climate, and environmental research.

Joint funding/Partnerships

High-Productivity Computing Systems (HPCS) Phase III: This DARPA 
effort, supported also by DOE/SC and NSA and with collaborative 
participation by other HEC agencies, involves design, fabrication, 
integration, and demonstration of full-scale prototypes by 2010 for a 
new generation of petascale, economically viable computing systems.

HEC-University Research Activity (HEC-URA): In 2004, HEC R&D agencies 
(DARPA, DOE/NNSA, DOE/SC, NASA, NSA, and NSF) initiated this program of 
high-risk R&D in technically challenging areas including HEC software 
tools and compilers; file systems, I/O, and storage design for high 
throughput; and new parallel programming models for thousands of 
processors. DARPA, DOE/SC, and NSF have contributed funding, and they 
and other HEC agencies participate in reviews and HEC-URA workshops.

DETERlab: DHS and NSF, with university and industry partners, are 
supporting the cyber-DEfense Technology Experimental Research 
laboratory testbed, a general-purpose experimental infrastructure that 
enables research and development on next-generation cyber security 
technologies.

Open Science Grid (OSG): NSF and DOE/SC are jointly supporting this 
growing consortium of about 100 researchers and software, service, and 
resource providers from universities, national laboratories, and 
computing centers across the U.S. OSG brings together distributed 
computing and storage resources from campuses and research communities 
in a common, shared grid infrastructure over research networks via a 
common set of middleware.

Trustworthy Cyber Infrastructure for the Power Grid (TCIP): In this 
effort co-funded by NSF, DOE (OE), and DHS, researchers from the 
University of Illinois at Urbana-Champaign, Dartmouth College, Cornell 
University, and Washington State University are seeking to better 
secure operations of the Nation's power grid by improving the 
engineering of its underlying IT infrastructure, making it more secure, 
reliable, and safe.

Cluster Exploratory (CluE) program: NSF has formed a partnership with 
Google and IBM that will enable academic researchers to explore data-
intensive computing applications in science and engineering using a 
1,600-processor server farm set up and supported by the two companies.

Committee Request #2: PCAST assessment of the NITRD Program
    Periodic assessments of the multi-agency networking and IT R&D 
program by a Presidential advisory committee are mandated by the HPC 
Act, as amended by the Next Generation Internet Research Act of 1998 
and most recently by the America COMPETES Act of 2007. Executive Order 
13385, signed September 29, 2005, assigned the assessment 
responsibility to PCAST, which in 2006 established a Networking and 
Information Technology (NIT) Subcommittee to lead the process. The 
results of PCAST's assessment are presented in the August 2007 report 
Leadership Under Challenge: Information Technology R&D in a Competitive 
World.
    Over all, the PCAST concluded that while the NITRD program, with 
NCO support, has in the past ``been effective at meeting agency and 
national needs,'' for the future ``changes are needed in order for the 
United States to ensure its continued leadership.'' This conclusion 
recognizes the advent of an era of global NIT competitiveness in which 
``other countries and regions have also recognized the value of NIT 
leadership and are mounting challenges.'' The changes recommended by 
PCAST are in the areas of education and workforce development, 
portfolio balance, new emphasis areas, and strategic planning. The 
PCAST conclusions and recommendations sharpen our focus on the central 
role of strategic planning in shaping NITRD growth and change; and even 
in the most technically difficult R&D areas such as complex software, 
the PCAST recommendations provide an opportunity to make progress 
toward our goals.
    The PCAST makes 17 recommendations in its report. (The 
recommendations are listed numerically, in sequence by chapter, in 
Appendix 2. Recommendations are noted parenthetically by number in this 
testimony.) These recommendations can be categorized as follows:

        (1)  Seven focus on improved planning processes (#9, 11-13, 16, 
        18, 20)

        (2)  Four address issues of portfolio balance and emphasis 
        areas (#2a, 6, 8, 14)

        (3)  Two suggest studies or consultations (#1, 10)

        (4)  Two focus on assessment (#17, 19)

        (5)  Two are addressed to the Director of OSTP (#7, 15)

        (6)  Three call for efforts to ease the visa process for 
        international students, graduates, and visiting experts (#2b, 
        2c, 2d)

    The final two categories fall outside the purview of NITRD and this 
testimony, and will not be addressed further. I would like to address 
the first four categories with a few comments and observations on each.

PCAST Category 1: Planning recommendations

    The PCAST assessment comes at a developmental turning point for 
NITRD. In light of the maturation and increase in responsibilities I 
have described, it is clearly the right time in NITRD history to 
consider where we are going and how we can better manage the journey. 
For this reason, and in light of the PCAST assessment, the NITRD 
Subcommittee has initiated the development of a comprehensive strategic 
plan. The key features of this plan are that it is:

        <bullet>  Vision-driven with a theme of complexity in multiple 
        dimensions

        <bullet>  Focused on goals and capabilities that can only be 
        achieved through interagency cooperation and coordination, and 
        the R&D capabilities and challenges required to achieve those 
        goals

        <bullet>  Predictive of an effective organizational structure 
        for the NITRD Program

    With the development of a comprehensive strategic plan, we 
anticipate a point-by-point response to the PCAST recommendations 
informed and supported by the plan.

Process for developing NITRD Strategic Plan

    At its November 2007 meeting, the NITRD Subcommittee approved an 
initiative to prepare a new Strategic Plan for NITRD as the critical 
initial task for entering a new phase of development. A detailed 
timeline for the strategic planning process, with milestones, is 
provided in Appendix 3 (note that the timeline also lists the PCAST 
recommendations relevant to the various steps in the process). This 
timeline covers the period FY 2008-09 and has five major features:

        (1)  The plan development process has three subphases--initial 
        content development March through September 2008; text drafting 
        and revision September 2008 through March 2009; and concurrence 
        review with a target for release in June 2009.

        (2)  The process provides multiple opportunities and mechanisms 
        for public input including a Request for Input (RFI) for 
        initial comments, a workshop to engage all sectors, and public 
        comments on a full draft plan.

        (3)  The PCAST recommendations are fully integrated into and 
        help guide the strategic planning process.

        (4)  The development of PCA strategic plans and roadmaps 
        overlaps with and is informed by the culmination of the NITRD 
        strategic planning process.

        (5)  The strategic planning process is viewed as ongoing with 
        regular opportunities in the future for evolving and revising 
        the plan as goals are achieved and the networking and IT 
        landscape changes.

    Agency representatives kicked off the strategic planning process 
with a two-day off-site meeting in March 2008. First principles agreed 
upon at that meeting were that the NITRD Strategic Plan should align 
with the strategic plans of the member agencies, and that the Plan 
should focus on long-term capabilities that require the research 
contributions of multiple agencies to achieve. An 18-member strategic 
planning team of agency representatives is now meeting weekly and is 
currently focused on the task of initial content development. A Request 
for Input (RFI) appeared in the Federal Register July 24 and 
notification has been sent to stakeholder organizations across the 
country as well as to the NCO's outreach list of approximately 1,700 
contacts. The two-page RFI (see Appendix 3) asks all interested 
parties--individuals, groups, organizations, and representatives of 
companies and industries--to provide a two-page statement envisioning 
the future of networking and IT and the future role of NITRD.
    In developing its strategic plan, NITRD is also coordinating 
closely with the NSTC Committee on Science's Interagency Working Group 
on Digital Data (IWGDD). The IWGDD is charged with developing and 
providing for the implementation of a plan to cultivate a framework for 
reliable preservation and effective access to digital scientific data. 
Along with Cita Furlani of NIST and Charles Romine of OSTP, I serve as 
co-chair of the IWGDD.

PCAST Category 2: Recommendations on portfolio balance and emphasis 
                    areas

    This category of PCAST recommendations recognizes and supports the 
current NITRD portfolio while suggesting increases in:

        (1)  larger-scale, longer-term, multi-disciplinary, and high-
        risk/high-payoff research; and

        (2)  support for NIT systems connected with the physical world, 
        software, digital data, and networking, while continuing 
        support for high-end computing, cyber security and information 
        assurance, human-computer interaction, and NIT and the social 
        sciences.

    As PCAST recognizes, the NITRD Program fields a number of efforts 
in this first item today, including R&D in petascale architectures, 
software, and applications; all-optical network technologies; quantum 
information technologies; and next-generation wireless and sensor 
capabilities. At the same time, a key goal of NITRD's current strategic 
planning activity is to enable us to identify new opportunities for 
long-term, high-risk research investments. The plan's specific emphasis 
on goals and capabilities that can only be achieved by agencies working 
together is intended to enable agencies to share funding for larger and 
longer-term projects and to share the risk in projects whose payoffs 
are broad enough to interest multiple agencies. Furthermore, the 
Program's ability to move nimbly to seize such new opportunities is 
contingent in part on the alignment of the PCAs in which agencies 
report their NITRD research dollars. For that reason, one focus of our 
strategic planning activities is an unfettered examination of the PCAs 
to assess whether, and what type of, realignment of NITRD research 
areas might be desirable to promote new strategic directions. (This 
kind of Subcommittee assessment is also called for by the PCAST in a 
separate recommendation.)
    High payoffs can also come from good ideas that are not necessarily 
high-risk. Two such examples are the opening up of computing cycles on 
federal leadership-class systems to the broader national research 
community and the investment by NSF in Track 2 HEC clusters. The NSF 
investment resulted in a dramatic increase in computational resources 
available over the Teragrid. The open solicitations for leading-edge 
computational research proposals by DOE/SC (under the Innovative and 
Novel Computational Impact on Theory and Experiment [INCITE] program) 
and NASA (under the former National Leadership Computing System [NCLS] 
program) have greatly broadened access for the national research 
community to the world's most powerful supercomputers. The 2008 INCITE 
competition resulted in awards of computing cycles on leadership-class 
federal systems to eight major U.S. corporations, 17 universities, and 
20 smaller federal agencies and labs as well as international research 
institutions--for a total of more than a quarter of a billion compute 
hours.
    The topic areas listed in the second item above (focused on cyber-
physical systems) are emerging as crucial in the discussions of the 
NITRD strategic planning group. We concur with PCAST in its assessment 
of the importance of these topics and expect them to be central in the 
final strategic plan.
    Although the PCAST report states that ``over all, technology 
transfer has worked well in networking and IT,'' the NITRD Program has 
several new opportunities to address the report's recommendation that 
NITRD do more to exploit existing tech transfer mechanisms. Already 
existing NITRD mechanisms that bring researchers and their results 
together with private-sector developers and end-users include: the 
above mentioned JET and MAGIC groups; the Federal Agency Administration 
of Science and Technology Education and Research (FASTER) community of 
practice group, which seeks exchanges of information with the private 
sector and new technologies to streamline the management of federal 
research; and the multi-sector NITRD research workshops held in all the 
PCAs.
    The new opportunities are presented by the two CNCI plans and the 
advanced networking plan. Each of these plans places substantial 
emphasis on developing new models for expanding substantive 
interactions with the private sector, such as cooperation on testbeds 
and increased meetings with industry organizations, and on expediting 
the movement of research results into prototyping and commercial 
implementation. The increasing pace of technological change is 
recognized in the NITRD community as a challenge in advancing research 
innovations, so there is eagerness now to explore ways to improve 
NITRD's outreach to private developers and industry.
    The new CNCI activities also bear on the PCAST recommendation to 
increase the emphasis on long-term research and infrastructure in cyber 
security and information assurance. The NITRD Subcommittee has approved 
the addition of one FTE to the NCO staff to support the expanded 
responsibilities of the CSIA IWG and its new Senior Steering Group 
(SSG) for coordinating cyber R&D and the Leap-Ahead research 
initiative. Infrastructure for cyber security R&D is called for by both 
the CNCI planning documents and the CSIA IWG Federal Plan.

PCAST Category 3: Recommendations for consultations and studies

    The dynamic and global networking and IT landscape will require a 
partnership across the government, academic, and commercial sectors if 
we are to maintain our nation's leadership role. This will require the 
Federal Government to act as both leader to and partner with the other 
sectors. The NITRD agencies can lead by making effective R&D 
investments, including those in larger, longer-term, multi-
disciplinary, and high-risk/high-payoff efforts, and by setting 
examples, demonstrating feasibility, and developing initial 
implementation capabilities through their own NIT activities, such as 
achieving IPv6 capability. The NITRD agencies can be partners by being 
transparent and interactive in their R&D planning activities, 
exchanging information about emerging innovations and understanding the 
needs, opportunities, and capabilities in the other sectors.
    This dual leadership/partnership role requires ongoing mechanisms 
for dialogue and interaction between the NITRD program and other 
sectors. As I mentioned earlier, the JET and MAGIC teams include 
academic and commercial-sector participation. This model could 
profitably be extended into other PCAs and focus areas. The NITRD 
workshops are designed to draw participation across sectors and to 
bring together groups with complementary interests and capabilities 
that do not have a history of interaction. This mechanism will continue 
to see extensive use. The PCAST assessment and its influence on NITRD 
activities demonstrates the value of high-level external review of the 
Program as an additional means for input. The America COMPETES Act 
calls for an ongoing, external review process.
    The partnership role also includes making good use of the expertise 
and perspectives available in the other sectors. External studies 
commissioned by NITRD are one means for achieving this. For example, 
the PCAST assessment identifies as a priority area ensuring an adequate 
supply of well-educated NIT professionals, a strategic goal that we 
share. To inform the development of our strategic plan, the NITRD 
agencies have launched an initial fast-track study of networking and IT 
education. A Statement of Work developed by a multi-agency task group 
was approved at the March off-site meeting of the NITRD Subcommittee. 
We are also in the process of assessing the current NITRD educational 
activities including graduate fellowships to compare these against 
needs and against priorities of our strategic plan. Our initial plan 
includes a full-day workshop to discuss current programs across the 
federal agencies. Thus, the strategic planning process itself is an 
example of the use of multiple consultation and input mechanisms to 
inform planning.
    Additional examples of external inputs are in the areas of software 
development and advanced networking. The recent National Academies 
study Software for Dependable Systems: Sufficient Evidence? has been 
complemented by the ongoing workshop series supported by the HCSS group 
that has drawn input from academia, industry, user groups, and 
government on certifiably dependable software systems for critical 
applications. The Federal Plan for Advanced Networking Research and 
Development was informed by a series of eight workshops, RFIs, working 
groups, and external reports.

PCAST Category 4: Recommendations on assessment

    The PCAST assessment included recommendations for periodic 
assessment of the NITRD PCA structure and the development of metrics 
and indicators to assess progress. As I stated earlier, an explicit 
goal in the strategic planning process is to evaluate the current PCA 
structure against our new strategic plan and to make changes as 
appropriate. We envision the strategic planning process and any 
associated PCA realignments as an ongoing process, to be revisited on a 
regular basis as the networking and IT landscape evolves and as 
strategic goals are achieved.
    There are currently two types of metrics or indicators against 
which we intend to assess progress. Stage One indicators include 
successful completion of the Strategic Plan and the PCA strategic plans 
and roadmaps--including measures of progress--called for in the PCAST 
report. The timeline in Appendix 3 provides a series of specific 
milestones and events, which are examples of Stage One indicators. 
Stage Two indicators--measures of how well the Program is carrying out 
its Strategic Plan, how effectively the PCAs are pursuing their 
strategic plans and roadmaps, and the impact of these efforts--are 
being developed as part of the strategic planning process. These Stage 
Two indicators will be an important part of our implementation plan.

Committee Request #3: Role and functions of the National Coordination 
        Office for NITRD (NCO/NITRD)
    The NCO/NITRD is identified in the NSTC Committee on Technology 
charter for the NITRD Subcommittee. The Office provides technical, 
planning, budgetary, and logistical support for all the activities of 
the NITRD Program, under the operative framework of relevant laws, 
charters, and Executive Branch directives. The Office also serves as 
the central point of contact for inquiries and requests for information 
about the Program and maintains the Program's Web site and documents, 
including current and archival documentation of NITRD subcommittee, 
IWG, and CG activities. The Director and Associate Director are federal 
employees and serve as senior management. The staff of 13 contractors 
and one federal employee on detail includes a contract manager and an 
office operations manager; five Technical Coordinators who support 11 
IWGs, CGs, and technical groups; one writer/editor; three 
administrative support staff; a web master and an IT systems manager; 
and a temporary full-time coordinator for the NITRD strategic planning 
process. The five Technical Coordinators are Ph.D.-level positions that 
provide expert knowledge of the R&D challenges in the NITRD fields.
    Regular NCO activities include logistical preparations and staff 
support for all meetings of NITRD entities, including those of the 
Presidential advisory group on IT, and most NITRD-affiliated workshops; 
drafting, editing, and publishing support for publications (annual 
budget supplement, R&D plans, workshop reports, studies, and reviews) 
of the NITRD Program and those of the Presidential advisory group; and 
preparation of special budgetary and technical documents requested by 
the NITRD Subcommittee. The NCO Director maintains close communications 
with OSTP, OMB, the NITRD agencies, and this Committee, and represents 
the Program in presentations to organizations nationally.
    The PCAST assessment includes three recommendations that explicitly 
reference the NCO. Two focus on NCO support for the Subcommittee in 
commissioning studies on networking and IT education and in developing 
metrics and progress indicators for assessment. These support efforts 
are underway, as described above.
    The third recommendation is that NCO, with Subcommittee guidance, 
should develop and implement a plan for supporting the NITRD Program in 
developing strategic plans and roadmaps. Such a plan has been developed 
for the initial stages of this new NITRD activity and is being 
implemented. Under this initial plan, the NCO has committed significant 
resources to the process, including the hiring of a temporary 
coordinator for strategic planning. The Office has committed 
significant technical writing time in preparing text and has charged 
the Technical Coordinators with serving as liaisons between the 
Strategic Planning Group and the IWGs and CGs. The Office is supporting 
the weekly meetings of the Strategic Planning Group and providing 
logistical support for its outreach activities. Thus, the NCO is fully 
committed to supporting a successful NITRD strategic planning and 
roadmapping process.

In conclusion

    The enabling NITRD legislation and its vigorous implementation by 
OSTP, OMB, and the NITRD agencies have created a robust, responsive, 
and resilient framework for effective cooperation and coordination in 
federal networking and IT R&D planning and execution. The NITRD Program 
has matured and now encompasses a spectrum of NIT areas that allow it 
to take on the complex, multi-disciplinary, multi-sector challenges 
characteristic of today's networking and IT landscape.
    With this maturation comes the opportunity and responsibility for 
comprehensive strategic planning to ensure best use of this important 
resource for coordination. The NITRD Program is now deep into the 
process of a vigorous strategic planning and roadmapping effort. We are 
confident that this process and its attendant elements will fully 
address the valuable recommendations contained in the PCAST assessment.
    A measure of the strength of the NITRD Program and the supporting 
National Coordination Office is the ability to simultaneously support a 
vigorous strategic planning process, the development of coordination 
and leap-ahead R&D activities under the Comprehensive National 
Cybersecurity Initiative, manage two external studies, facilitate a 
robust workshop series, and conduct the regular planning, coordinating, 
and reporting activities of the 11 IWGs, CGs, and teams. This is only 
accomplished because of the competence, dedication, and commitment of 
all of the members of the NITRD/NCO community.
    As the PCAST concludes, leadership in networking and information 
technology is essential to U.S. economic prosperity, security, and 
quality of life. The federal investments we make in research and 
development in this area are the keys to a future of promise for our 
nation and its citizens. I look forward to working with Congress to 
fulfill that promise.
    Thank you.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                   Biography for Christopher L. Greer
    Dr. Chris Greer is Director of the National Coordination Office 
(NCO) for the Networking and Information Technology Research and 
Development (NITRD) program. The NCO/NITRD mission is to formulate and 
promote federal information technology research and development to meet 
national goals. The NCO reports to the Office of Science and Technology 
Policy within the Executive Office of the President. Dr. Greer is on 
assignment to the NCO from his position as Senior Advisor for Digital 
Data in the NSF Office of Cyberinfrastructure. He recently served as 
Executive Secretary for the Long-lived Digital Data Collections 
Activities of the National Science Board and is currently Co-Chair of 
the Interagency Working Group on Digital Data of the National Science 
and Technology Council's Committee on Science. He is also a member of 
the Advisory Committee for the National Archives and Records 
Administration's Electronic Records Archive and a member of the Digital 
Library Council of the Federal Depository Library Program.
    Dr. Greer received his Ph.D. degree in biochemistry from the 
University of California, Berkeley and did his postdoctoral work at 
CalTech. He was a member of the faculty at the University of California 
at Irvine in the Department of Biological Chemistry for approximately 
18 years where his research on gene expression pathways was supported 
by grants from the NSF, NIH and the American Heart Association. During 
that time, he was founding Executive Officer of the RNA Society, an 
international professional organization.

    Chairman Gordon. Right on the money, Dr. Greer. Dr. Reed, 
you are up.

    STATEMENT OF DR. DANIEL A. REED, DIRECTOR, SCALABLE AND 
           MULTICORE COMPUTING, MICROSOFT CORPORATION

    Dr. Reed. Good morning, Mr. Chairman and Members of the 
Committee. I am Dan Reed. I am Chair of the Board of Directors 
of the Computing Research Association and Co-Chair of the PCAST 
Subcommittee that produced the 2007 NITRD Program Assessment.
    Today I would like to make five points regarding the NITRD 
Program followed by a set of specific recommendations for the 
future. Information technology, as Dr. Greer noted, is driven 
by basic research investments that has transformed our society 
and our economy. Imagine a world without personal computers, 
without mobile devices or the Internet, without predictive 
computational models or deep--the future can be even more 
amazing if we sustain our IT research----
    Historically, the diversity of the NITRD agencies has been 
a major strength of U.S. IT research, fostering multiple 
approaches to complex problems. The Internet began as a DARPA 
project, grew with NSF support, and blossomed with commercial 
funding. The human genome project was a triumph of biomedicine 
and IT based and building on funding from NIH, from DARPA, from 
NSF, the Department of Energy, and it birthed personalized 
medicine.
    This brings me to the issue of balancing risk and 
protection--today I believe the NITRD ecosystem's health is 
threatened due to an over-dependence on a single-funding source 
and inadequate research funding overall. DARPA's retreat from 
fundamental computing research at U.S. universities has 
unbalanced the NITRD ecosystem. NSF now provides 86 percent of 
all academic IT research funding, and fierce competition has 
driven researchers to focus excessively on short-term, well-
risked research projects. Like a stock portfolio, our long-term 
success depends on balance, planning, and regular reassessment.
    This leads to my third point, NITRD coordination and 
planning. In general, I believe the NITRD Programs effectively 
foster informal communication and coordination among the 
agencies, and I commend the National Coordination Office for 
its role in this aspect. However, the focus on individual 
agency agendas has made the NITRD Program less effective in 
managing coordinated projects, particularly multi-disciplinary 
ones of rising importance.
    This leads to my fourth point about research opportunities 
and foci. In 2007, PCAST revisited the priority areas 
identified by PITAC in 1999. Concluding that they remained 
deeply relevant, including I should add, as a personal 
anecdote, high performance computing, something which I have 
been involved in for many years. IT systems that interact with 
the physical world, however, a special case is the more general 
issue of software systems emerged as a new top priority. These 
cyber-physical systems embed computing, sensors, and actuators 
and objects that span scales from our critical national 
infrastructure to implanted biomedical devices. Their creation 
requires workers with new and ever-more multi-disciplinary 
skills.
    That leads me to the issue of sustaining our IT workforce. 
Today information technology has a serious image problem. It 
affects our workforce quantity, its diversity, and its--many 
groups are working very hard to address stereotypes and create 
new, multi-disciplinary curricula but much work remains in this 
area. I believe we must also do more to retain the best and 
brightest international students who obtain graduate degrees 
here, many of whom are supported by federal research grants and 
contracts. Simply put, our international competitiveness 
depends on the availability of a qualified and diverse 
workforce.
    This leads to my recommendations for the future. To ensure 
the health of the U.S. IT ecosystem, we should fully fund the 
America COMPETES Act. This will fuel the IT innovation engine, 
the fundamental research by U.S. universities and national 
laboratories, and further broaden STEM-based education. And I 
commend you, Mr. Chairman, and your colleagues for your 
continuing support of America COMPETES.
    Second, I believe we must rebalance participation in the 
NITRD Program so that responsibility for fundamental research 
is not born excessively by a single agency. As Dr. Greer noted, 
I believe we must create and regularly update a strategic R&D 
plan and a set of associated metrics that define interagency 
accountabilities with a mix appropriately of project scales 
and--risks.
    Finally, I believe we must regularly review our research 
investment against that strategic plan. I also believe the 
NITRD Program is best served by a stand-alone and active PITAC 
that is composed of computing experts drawn from academia and 
industry. I say that as someone who served on both PITAC and 
PCAST. Eight years between overall NITRD reviews is far too 
long in the information technology industry. By analogy, eight 
years in dog years is multiple lifetimes in the computing 
industry. We need to be more proactive in examining our 
strategy.
    Mr. Chairman, thank you and this committee for your 
continued interest and support in the future of the NITRD 
Program and its importance to U.S. competitiveness and national 
security. At the appropriate time, I would be delighted to 
answer any questions.
    [The prepared statement of Dr. Reed follows:]
                  Prepared Statement of Daniel A. Reed
    Good afternoon, Mr. Chairman and Members of the Committee. Thank 
you for granting me this opportunity to comment on the federal 
Networking and Information Technology Research and Development (NITRD) 
program. I am Daniel Reed, Chair of the Board of Directors for the 
Computing Research Association (CRA). I am also a researcher in high-
performance computing; a member of the President's Council of Advisors 
on Science and Technology (PCAST); the former Head of the Department of 
Computer Science at the University of Illinois at Urbana Champaign; and 
currently Director of Scalable and Multicore Computing Strategy at 
Microsoft.
    During our lifetime, information technology has transformed our 
society, our economy and our personal lives. Imagine a world without 
consumer electronics, personal computers, the Internet or predictive 
computational models. As Tennyson so eloquently expressed, we have ``. 
. . dipped into the future, far as human eye could see; saw the vision 
of the world, and all the wonder that would be.'' Despite our current 
wonder, the future of computing--the world that can be--is even more 
amazing, for we are poised on the brink of even greater revolutions: 
deep understanding of biological and physical processes, personalized 
medicine and assistive living technology, autonomous vehicles that 
navigate in traffic and severe weather, strategic and tactical military 
and intelligence systems with true information superiority, information 
assistants that enhance our intellectual activities, distributed 
sensors and actuators that protect our environment, intelligent systems 
for advanced energy management, and a host of other innovations.
    Making such visions a reality is the essence of information 
technology research and the core of the NITRD program. It is also why 
sustained and appropriate investments in information technology 
research and development are critical to our nation's future.
    In response to your questions, I would like to make eight points 
today regarding the status and future of the NITRD program, beginning 
with a synopsis of the recent report of the President's Council of 
Advisors on Science and Technology (PCAST) assessment of the 
Networking, Information Technology Research and Development (NITRD) 
program.

1.  PCAST: Information Technology Assessment

    In 2007, I was privileged to co-chair PCAST's assessment of the 
NITRD program. The resulting report, Leadership Under Challenge: 
Information Technology R&D in a Competitive World,\1\ was the first 
overall assessment of the NITRD program since that conducted in 1999 by 
the President's Information Technology Advisory Committee (PITAC). The 
2007 PCAST report emphasized the following points:
---------------------------------------------------------------------------
    \1\ Leadership Under Challenge: Information Technology R&D in a 
Competitive World, President's Council of Advisors on Science and 
Technology (PCAST), August 2007, http://www.ostp.gov/pdf/
nitrd<INF>-</INF>review.pdf

        <bullet>  NIT and global competitiveness. Today, the United 
        States is the global leader in networking and information 
        technology (NIT) and that leadership is essential to U.S. 
        economic prosperity, security, and quality of life. However, 
        other countries and regions have also recognized the value of 
---------------------------------------------------------------------------
        NIT leadership and are mounting challenges.

        <bullet>  NITRD ecosystem. The NITRD program is a key mechanism 
        through which the Federal Government contributes to NIT 
        research and development leadership, and the NITRD program has 
        by and large been effective at meeting agency and national 
        needs.

        <bullet>  Research horizons and risks. The federal NIT research 
        and development portfolio is currently imbalanced in favor of 
        low-risk projects; too many are small scale and short-term 
        efforts. The number of large-scale, multi-disciplinary 
        activities with long time horizons is limited and visionary 
        projects are few.

        <bullet>  Workforce availability and skills. The number of 
        people completing NIT education programs and the usefulness of 
        that education fall short of current and projected needs. 
        Current curricula must be re-evaluated, graduate fellowships 
        increased and visa processes simplified to address these 
        challenges.

        <bullet>  Research priority areas. The top priorities for new 
        funding are NIT systems connected to the physical world, 
        software, networking and digital data, with continuing emphasis 
        on high-end computing, cyber security and information 
        assurance, human-computer interaction and NIT and the social 
        sciences.

        <bullet>  Strategic plans and roadmaps. We must develop, 
        maintain, and implement a strategic plan for the NITRD program, 
        along with public R&D plans or roadmaps and progress metrics 
        for key technical areas that require long-term interagency 
        coordination and engagement.

        <bullet>  Interagency coordination. The current nature and 
        scale of NITRD program coordination processes are inadequate to 
        meet anticipated national needs and to maintain U.S. leadership 
        in an era of global NIT competitiveness.

    With this backdrop, the remainder of my testimony expands and 
explains the rationale for these PCAST findings along with personal 
observations on possible actions. However, the opinions expressed 
herein are my own, not necessarily those of PCAST or the Office of 
Science and Technology Policy (OSTP). I would also like to acknowledge 
the contributions of Peter Harsha, from the Computing Research 
Association (CRA), to these remarks.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


2.  The Importance of Information Technology

    The importance of information technology (IT) in enabling 
innovation and powering the new economy is well documented. Advances in 
computing and communications have led to significant improvements in 
product design, development and distribution for American industry, 
provided instant communications for people worldwide, and enabled new 
scientific disciplines like bio-informatics and nanotechnology that 
show great promise in improving a whole range of health, security, and 
communications technologies. Several studies have suggested information 
technology has been responsible for 25 percent of more of U.S. economic 
growth in recent years, despite being a much smaller fraction of the 
gross domestic product (GDP).\2\ Moreover, information technology 
leadership has proven essential to the Nation's security, from our 
national infrastructure and signals intelligence to our military.
---------------------------------------------------------------------------
    \2\ Dale W. Jorgenson and Charles Wessner, editors. 2007. Enhancing 
Productivity Growth in the Information Age: Measuring and Sustaining 
the New Economy. Washington, D.C.: National Academies Press. Also see 
Dale W. Jorgenson, Mun S. Ho, and Kevin J. Stiroh. 2005. Productivity 
Volume 3: Information Technology and the American Growth Resurgence. 
Cambridge, Mass.: MIT Press.
---------------------------------------------------------------------------
    Information technology has also changed the conduct of research. 
Innovations in computing and networking technologies are enabling 
discovery across every scientific and engineering discipline--from 
mapping the human brain to modeling climatic change and enhancing 
energy production. Faced with problems that are ever more complex and 
interdisciplinary in nature, researchers are using IT to collaborate 
across the globe, visualize large and complex data sets, and collect 
and manage massive amounts of real-time sensor-derived data.
    But equally important to the role IT plays in enabling innovations 
in industry and in the other scientific and engineering disciplines is 
the role of the research and development (R&D) ecosystem in enabling IT 
innovations. The 1995 National Research Council (NRC) report, Evolving 
the High Performance Computing and Communications Initiative to Support 
the Nation's Information Infrastructure,\3\ included a compelling 
graphic illustrating this spectacular return. The graphic was updated 
in 2002 and is reproduced in Figure 1.
---------------------------------------------------------------------------
    \3\ U.S. National Research Council. Evolving the High Performance 
Computing and Communications Initiative to Support the Nation's 
Information Infrastructure. National Academies Press, Washington, D.C. 
1995.
---------------------------------------------------------------------------
    The graphic in Figure 1 shows the development of technologies from 
their origins in industrial and federally-supported research, to the 
introduction of the first commercial products, through the creation of 
billion-dollar industries and markets. The original 1995 NRC report 
identified nine of these multi-billion dollar IT industries (the 
categories on the left side of the graphic). Seven years later, the 
number of examples had grown to 19 multi-billion dollar industries that 
are transforming our lives and driving our economy.
    The graphic also illustrates the complex interplay among industrial 
R&D efforts and the interdependent ecosystem of NITRD agencies that 
supports academic research. Each federal agency plays a distinct, but 
important role in the current and future success of the U.S. 
information technology ecosystem.

3.  The NITRD Ecosystem: Fostering Innovation via Diversity

    The NITRD program is a collaborative confederation of thirteen 
federal agencies, each with differing missions that depend--to varying 
degrees--on advances in information technology. This ecosystem of 
agencies is complex and interdependent, with some small and others 
large, some supporting outcome-directed research and others supporting 
innovation-driven research, some supporting small projects and others 
funding large initiatives, some focused on federal research 
laboratories and others engaging academia.
    Historically, this NITRD diversity has been a major strength of the 
U.S. approach to information technology research, as it has fostered 
diverse approaches to complex computing problems, with differing 
research horizons and communities. Together, a strong IT industry, 
powerful commercialization system, and high-quality education and 
research institutions have been critical to America's leadership in IT. 
The aforementioned 1995 report by the National Research Council 
emphasized the ``extraordinarily productive interplay of federally 
funded university research, federally and privately funded industrial 
research, and entrepreneurial companies founded and staffed by people 
who moved back and forth between universities and industry.''
    To further illustrate this point, consider some specific, 
compelling examples of agency leadership, cross-agency collaboration 
and industrial engagement. The Defense Advanced Research Projects 
Agency (DARPA) has historically supported large-scale projects with 
revolutionary intent--high-speed networks for resilient communication, 
artificial intelligence and autonomous navigation, massively parallel 
supercomputing for detailed modeling, real-time and embedded systems 
for situational awareness--to ensure the technological superiority of 
U.S. military forces. Today's Internet began in the 1960s as an 
ambitious DARPA (then ARPA) research project in resilient, packet-based 
communications for national defense.
    Reflecting its long-term focus, DARPA supported the Arpanet for 
well over a decade. This later enabled the National Science Foundation 
(NSF) to build on a rich research and technology base to create a high-
speed national network connecting supercomputing centers and their NSF-
funded students and faculty researchers. From this fertile ground, the 
Mosaic web browser was born at the University of Illinois, spawning the 
commercial web revolution and today's Internet via commercial 
investments.
    The Department of Energy's Office of Science (DOE SC) and its 
National Nuclear Security Administration (DOE NNSA) have long supported 
algorithms and software research, network and distributed systems 
studies and advanced computer architecture designs in both DOE 
laboratories and academia. DOE SC's Scientific Discovery through 
Advanced Computing (SciDAC) program supports multi-disciplinary teams 
to develop the enabling technologies for next-generation computing 
systems and their application to models of climate change, efficient 
energy sources and biological processes. In turn, the DOE NNSA has 
advanced computer systems, software and algorithms in support of 
nuclear stockpile stewardship and certification.
    The Human Genome Project, funded by the National Institutes of 
Health (NIH), was enabled by high-throughput sequencing systems, based 
on advanced semiconductor technology and efficient algorithms for DNA 
subsequence reassembly executing atop high-performance computing 
systems. Simply put, the Human Genome Project was a collaborative 
triumph of biomedicine and information technology; the commercial 
semiconductor designs and computer architecture and academic algorithms 
that enabled this breakthrough were previously funded by DARPA, NSF and 
DOE. The tantalizing promise of low-cost, personalized medicine, with 
treatments and drugs tailored to individual needs, will be realized 
only via continued advances in computing technology, themselves derived 
from information technology research.
    As all these examples illustrate, the success of the NITRD program 
has accrued from the health, diversity and vigorous interactions among 
its component agencies, universities and industrial partnerships. 
Historically, DARPA funded large-scale, high-risk projects involving 
academic and industry teams. In turn, DOE supported national laboratory 
and academic researchers around large-scale scientific instruments, and 
NSF supported innovation-driven research, predominantly by individual 
faculty members and their students, with a mix of larger projects and 
centers. NIH has partnered on selected NITRD programs and NASA, NIST 
and the other NITRD agencies have supported mission-specific research 
and development programs.\4\
---------------------------------------------------------------------------
    \4\ Each of the NITRD agencies supports diverse programs at 
multiple scales. This description captures the dominant mode of each 
agency.
---------------------------------------------------------------------------
    The rich ecosystem of computing research approaches, collaborative 
agencies and funding models has long made the U.S. the undisputed 
leader in information technology, with concomitant benefits to our 
national security, economic competitiveness and lifestyle.

4.  Research Horizons and Risks: The Funding Monoculture

    In a biological ecosystem, environmental changes or the death of a 
species can change the ecosystem's set point or even lead to its death; 
the NITRD ecosystem is no different. Today, the health of the NITRD 
ecosystem is threatened, and the future of our national competitiveness 
is at grave risk, due largely to an over-dependence on a single 
research funding source, a single funding approach and inadequate 
research funding overall. Through the 1990s, academic computing 
research funding was dominated by two NITRD sources, DARPA and NSF, 
with each filling complementary ecosystem niches based on different 
project selection models, funding scales and assessment approaches.
    From its inception, DARPA supported larger-scale, outcome-driven 
initiatives and projects based on targeted solicitations. DARPA program 
managers had broad latitude to assemble academic and industrial 
consortia that built computing technology prototypes and transferred 
promising prototypes into industry for commercialization. In a 
complementary role, NSF funded exploratory, innovation-driven computing 
research, funding peer-reviewed research proposals submitted by the 
academic community. Although project funding levels were typically 
lower than at DARPA, researchers were free to explore novel ideas of 
their own choosing. NSF researchers not only filled niches not occupied 
by DARPA, their most promising results often stimulated new DARPA 
technology prototyping and transfer initiatives.
    As an example, research flourished in computer architecture, system 
software, programming models, algorithms and applications in the 1990s. 
Computer vendors launched new initiatives, parallel computing startup 
companies were born, and planning began for petascale systems, based on 
integrated hardware, architecture, software and algorithms research. 
This renaissance in parallel and high-performance computing research 
was a direct consequence of the High-Performance Computing and 
Communications (HPCC) program and interdependent agency initiatives, 
notably DARPA and NSF. DARPA funded large-scale hardware prototypes and 
software initiatives, while NSF supported exploratory research by 
single investigators.
    When DARPA shifted its funding and evaluation model to shorter-
term, ``go/no-go'' assessments and approaches, the ecosystem of funding 
agencies and researchers reacted and adapted. Large-scale computing 
research contracted, and those academic institutions and faculty who 
has historically benefited from DARPA's largess turned to NSF for 
research funding. This retreat of DARPA from funding fundamental 
computing research at U.S. universities has left a hole in the overall 
federal IT research ecosystem that other participating agencies have 
been unable to fill. The types and scale of research changed and the 
number of research proposals submitted to NSF rose precipitously, with 
a concomitant decline in proposal success rates.
    The National Science Foundation is now the predominate funder of 
all academic computing research. Indeed, recent analyses show that NSF 
provides 86 percent of all funding for academic computing research.\5\ 
The result is that NSF is now viewed by most academic researchers as 
the only viable source of research funding. The notable exceptions are 
the DOE SciDAC program and those faculty members who have strong ties 
to the national laboratories.
---------------------------------------------------------------------------
    \5\ National Science Foundation, Division of Science Resources 
Statistics. 2008. Federal Funds for Research and Development: Fiscal 
Years 2005-07. Forthcoming. Arlington, VA.
---------------------------------------------------------------------------
    The consequences of this ecosystem shift are both deep and 
profound, with several deleterious effects. First, fierce competition 
for funding has made researchers risk averse. Today, those proposals 
recommended for funding are far more likely to emphasize short-term, 
incremental research that builds on well-understood approaches. Such 
proposals are less controversial and more likely to win consensus 
approval than those embodying high risk, ground-breaking ideas. This is 
especially worrisome given the timeline of Figure 1, which shows the 
long incubation period for these technologies between the time they 
were conceived and first researched to the time they arrived in the 
market as commercial products. In nearly every case, that lag time is 
measured in decades.
    Incremental advancement itself is not bad; it is the lifeblood of 
the scientific process. However, just as a balanced retirement 
portfolio includes an evolving mix of low risk, modest return 
investments and higher risk, higher return investments, the long-term 
success of our computing research ecosystem depends on a balance of 
modest risk, moderate payoff research and higher risk, but high payoff, 
revolutionary research. We must rebalance our research portfolio to 
encourage greater innovation and risk taking.
    Second, current academic structures necessitate research funding as 
an external validation of quality and to sustain internal research 
processes. Hence, faculty members face enormous institutional pressure 
to seek external research funding for promotion, tenure and national 
visibility. Because only a modest fraction of submitted proposals is 
funded in many programs, faculty members now spend an inordinate 
fraction of their time preparing, submitting and reviewing proposals. 
It is not uncommon for an assistant professor to write five or even ten 
proposals in a single year, hoping one or two will be funded. Hence, we 
must address the funding shortfall that currently limits research 
innovation.

5.  Research Priority Areas: Identifying Innovation Foci

    The seminal 1999 PITAC report, Information Technology Research: 
Investing in Our Future,\6\ highlighted the importance of software 
noting, ``Software is the new physical infrastructure of the 
information age. It is fundamental to economic success, scientific and 
technical research, and national security.'' The report also noted that 
the diversity and sophistication of our software systems was growing 
rapidly at a time we lacked the technologies to build reliable and 
secure software systems and that even more perniciously, we were under-
investing in the research needed to develop those technologies. In 
addition to the critical importance of software, the 1999 PITAC report 
emphasized the importance of adequate research investment in scalable 
information infrastructure and high-performance computing.
---------------------------------------------------------------------------
    \6\ President's Information Technology Advisory Committee, 
Information Technology Research: Investing in Our Future, http://
www.nitrd.gov/pitac/report, 1999
---------------------------------------------------------------------------
    In 2007, PCAST revisited the 1999 PITAC technical priority areas, 
concluding that the broad areas remained deeply relevant, albeit with 
slight changes. Information technology systems that interact with the 
physical world emerged as the new top priority--cyber-physical systems 
where computing systems, sensors and actuators are deeply embedded in 
engineered objects. Such systems are now both diverse and ubiquitous 
and include our critical national infrastructure such as the electric 
power grid, mobile and human-centered sensors (e.g., mobile biomedical 
devices), environmental monitors and military systems. Such systems can 
be difficult and costly to design, build, test, and maintain and the 
consequences of failure can be catastrophic. However, the benefits are 
enormous, including more efficient transportation systems, more 
efficient energy generation and management and a reduced carbon 
footprint for a diverse set of human activities.
    One should rightly view systems that interact with the physical 
world as a special case of the broader software priority identified by 
PITAC. In this spirit, software remains the second broad priority 
identified by PCAST, along with networking and digital data. The latter 
two areas reflect the popularization of the Internet, with concomitant 
challenges in security, scalability, resilience and management, and the 
explosive growth of digital data, itself enabled by inexpensive sensors 
and large-scale storage devices. Advances in these areas are also 
essential to national security and to combating cyber crime. PCAST also 
recognized the need for continuing emphasis on high-end computing, 
cyber security and information assurance, human-computer interaction, 
and information technology and the social sciences.

6.  Workforce: Ensuring Quality and Quantity

    In a knowledge economy, continued innovation and international 
competitiveness depend on an adequate and continually renewed supply of 
qualified and motivated workers. In the U.S., the IT workforce is 
composed of those educated here--U.S. citizens, permanent residents and 
international students--and the best and brightest from around the 
world who choose to live and work here. We face both quantity 
challenges, ensuring an adequate supply of IT workers, and quality 
issues, creating curricula that match emerging technical trends and 
that attract and excite sufficiently diverse cross-section of the 
population. As the 2007 PCAST report noted,

         Although the overall supply of networking and information 
        technology specialists is expected to grow in response to the 
        growth in total demand, at current rates of enrollment and 
        graduation, shortfalls in the numbers of highly qualified 
        computer scientists and engineers graduated at the 
        undergraduate and doctoral levels are likely. Women and other 
        under-represented groups will constitute a declining proportion 
        of the new graduates.

    The stereotype of a geek who writes code in a small cubicle and who 
eschews human interaction is neither reflective of the diversity of 
modern computing and nor of computing's role in all aspects of society, 
from the arts and humanities through business practice to science and 
engineering. Many academic, federal and private groups are working 
assiduously to dispel this stereotype and raise the image of computing 
among potential students. The Image of Computing Task Force\7\ was 
created by a consortium of companies and computing professional 
societies to ``expose a realistic view of opportunities in computing'' 
and to ``educate the public and those with the aptitude and interest to 
pursue computing careers, on the increasing vital role computing plays 
in every major field.'' In addition, the CRA Committee on the Status of 
Women (CRA-W),\8\ the National Center for Women and Information 
Technology (NCWIT) \9\ and the Coalition to Diversity Computing (CDC) 
\10\ are all highlighting the importance of diversity in computing and 
the opportunities for creative and engaging careers.
---------------------------------------------------------------------------
    \7\ Image of Computing, http://www.imageofcomputing.com
    \8\ CRA Committee on the Status of Women, http://www.cra.org/
Activities/craw
    \9\ National Center for Women and Information Technology, http://
www.ncwit.org
    \10\ Coalition to Diversity Computing, http://www.cdc-computing.org
---------------------------------------------------------------------------
    In addition to increasing awareness of information technology as a 
vibrant, attractive and relevant problem-solving skill in the 21st 
century knowledge economy, computing professional societies and 
universities are working to revamp curricula that have changed 
relatively little since the 1970s. The changes include increasing 
multi-disciplinary computing education (i.e., computing and its 
applications to another discipline), multi-track curricula that allow 
students to create degree programs that better match their interests 
and emphasizing the power of computing as a general-purpose problem 
solving tool. As a complement to image education and curricula reform, 
PCAST also recommended increasing the number of multi-year graduate 
fellowships offered to U.S. students.
    These image, curricula and fellowship reforms potentially address 
the shortfall of domestic students. However, the U.S. information 
technology ecosystem has long been a magnet for talented students, 
researchers and workers from around the world. Such individuals 
increasingly find attractive educational, research and professional 
opportunities in their home countries. It is in the best interests of 
the U.S. to retain the best and brightest international students who 
obtain graduate degrees in this country, often supported by research 
grants and contracts. Hence, PCAST also recommended streamlining the 
process for obtaining visas for non-U.S. students admitted to 
accredited graduate degree programs and to make it routine for foreign 
nationals who have obtained advanced degrees in NIT subjects at 
accredited U.S. universities to be permitted to work and gain 
citizenship by easing visa and permanent resident processes for them.

7.  NITRD Coordination: Strategic Planning and Execution

    Without doubt, the NITRD program has been effective in fostering 
informal communication and coordination across agencies, both 
collectively and via the National Coordination Office (NCO). The NCO 
annually solicits and reports agency spending on NITRD Program 
Component Areas (PCAs). Though each federal agency is represented 
within a NITRD Interagency Working Group (IWG) on IT research and 
development, the IWG has no budget authority over any of the 
participating agencies or the PCAs, nor does the NCO. Each agency 
controls its own budget and sets its own goals exclusively on the 
perceived appropriateness of that funding to the agency's mission.
    In practical terms, this means the IWG function in NITRD is largely 
one of information sharing among agency representatives on what the 
agencies plan to do and have done. Although the resulting NCO data is 
useful, it is a retrospective view of agency decisions and priorities, 
rather than an assessment of program priorities and progress against 
those plans. The process also tends to bias the process toward 
incremental, agency-specific agendas, making the NITRD program less 
effective in managing larger-scale, coordinated projects than span 
multiple agencies.
    In a globally competitive world, we must plan more strategically 
and increase agency accountability for execution against those 
strategic plans. This will require greater interagency coordination and 
collaboration across PCAs to facilitate research and development 
transition within and across agencies, both to support fundamental 
research and to enable larger, multi-agency projects.

8.  Remaining Competitive: A Call to Action

    To maintain the health and vibrancy of the U.S. information 
technology ecosystem, we must fully fund the agencies and programs 
included in the America COMPETES Act. I commend you and your 
colleagues, Mr. Chairman, for working so hard for its passage last 
year. It sent a powerful signal about the importance of the federal 
role in supporting fundamental research in the physical sciences, 
including information technology. I also appreciate your efforts to see 
the promise of the COMPETES Act realized in appropriations. The funding 
authorized in the Act would help drive the core of the IT innovation 
engine--the fundamental information technology research in U.S. 
universities and national laboratories supported by the National 
Science Foundation, the Department of Energy's Office of Science, and 
the National Institute of Standards and Technology.
    The focus within the COMPETES Act on programs that aim to increase 
the number of students who enter science, technology, engineering and 
mathematics (STEM) fields is also crucial to the future of information 
technology research. As I noted earlier, the projected demand for IT 
professionals over the next 10 years--positions that require at least a 
Bachelor's degree in computer science or computer engineering--exceeds 
all other science and engineering disciplines combined. Encouraging 
U.S. students to enter the science and engineering education pipeline, 
as is the focus of many of the programs included in the COMPETES Act, 
will help ensure that those projected workforce needs are addressed. 
The many provisions in the Act that seek to increase the participation 
of women and minorities in science and engineering fields--two 
populations that are woefully under-represented in computing--are 
especially important.
    Adequate funding is critically important, but it is not sufficient; 
this funding must be invested wisely in our information technology 
ecosystem. The unilateral decision by any agency to change the 
direction, scope and mechanisms for its research investments has 
consequences across the entire NITRD ecosystem--federal agencies, 
universities and industry. Such changes must not be undertaken without 
due consultation and consideration of broad consequences. We must 
rebalance agency participation in the NITRD program so that the crucial 
responsibility of supporting fundamental research in computing is not 
borne solely by one agency.
    We must also create an interagency IT research and development 
strategic plan, complemented by a roadmap and a set of associated 
metrics that define interagency expectations and accountabilities. An 
evolving, strategic vision of information technology, together with an 
appropriate balance of short-range, low risk and long-range, high risk 
projects is essential if we are to remain global leaders. The 1999 
PITAC report recommended creation of large-scale Expeditions to the 
21st Century, revolutionary expeditions whose mission

         . . . will be to report back to the Nation what could be 
        accomplished by using technologies that are quantitatively and 
        qualitatively more powerful than those available today. In 
        essence, these centers will create ``time machines'' to enable 
        the early exploration of technologies that would otherwise be 
        beyond reach for many years.

    We would do well to embrace this vision and recommendation, 
ensuring that we fund a mix of projects, large and small, low and high 
risk, and both short- and long-term.
    Finally, we must also have appropriate oversight and review of our 
research investment and accountability against strategic plans. The 
President's Information Technology Advisory Committee (PITAC) was 
authorized by Congress as a federal advisory committee under the High-
Performance Computing Act of 1991 and the Next Generation Internet Act 
of 1998, with responsibility to assess advanced information technology 
and review the NITRD program. PITAC functioned as a separate 
Presidential advisory committee until its roles and responsibilities 
were assigned by Executive Order in 2005 to the President's Council of 
Advisors on Science and Technology (PCAST).
    PCAST has a broad scope that spans all of science and technology, a 
challenging and important portfolio. Given the importance of IT 
research and technology to our nation's economy, national security, 
military readiness and research enterprise, an independent PITAC is 
needed that can devote the time, energy and diligence to ongoing 
assessment of successes, challenges, needs and opportunities in 
information technology. I base this opinion on my own experience as a 
previous member of PITAC and a current member of PCAST. Simply put, the 
NITRD program is best served by a stand-alone PITAC composed of 
computing experts from academia and industry.
    In summary, information technology is a universal intellectual 
amplifier, advancing all of science and engineering, powering the 
knowledge economy, enhancing the quality of our health care, and 
transforming how we work, play and communicate. With vision, strategic 
investment and coordination, the U.S. NITRD program can and will 
continue to be the world's leader.
    Mr. Chairman, thank you and this committee for your interest in the 
future of the NITRD program and its importance to U.S. competitiveness. 
Thank you very much for your time and attention. At the appropriate 
time, I would be pleased to answer any questions you might have.

                      Biography for Daniel A. Reed
    Daniel A. Reed is Director of Scalable and Multicore Computing 
Strategy at Microsoft. Previously, he was the Chancellor's Eminent 
Professor at the University of North Carolina at Chapel Hill, as well 
as the Director of the Renaissance Computing Institute (RENCI), which 
explored the interactions of computing technology with the sciences, 
arts and humanities. He formerly held the Edward William and Jane Marr 
Gutgsell Professorship at the University of Illinois at Urbana-
Champaign, where he was Professor and Head of the Department of 
Computer Science and Director of the National Center for Supercomputing 
Applications (NCSA). At Illinois, he also led National Computational 
Science Alliance, a consortium of roughly fifty academic institutions 
and national laboratories to develop next-generation software 
infrastructure of scientific computing. He was also one of the 
principal investigators and chief architect for the NSF TeraGrid.
    Dr. Reed is a member of President Bush's Council of Advisors on 
Science and Technology (PCAST) and a former member of the President's 
Information Technology Advisory Committee (PITAC). He recently chaired 
a review of the federal networking and IT research (NITRD) portfolio, 
and he is Chair of the Board of Directors of the Computing Research 
Association (CRA), which represents the research interests of 
universities, government laboratories and industry. He received his 
Ph.D. in computer science in 1983 from Purdue University.

    Chairman Gordon. Thank you, Mr. Reed, and also thank you 
for pointing out the need to continue the funding for COMPETES. 
I think sometimes the real world out there doesn't understand 
the difference between authorization and appropriation, and we 
have got to continue to move forward. And thank you for 
bringing that up.
    I will also point out that in the COMPETES Act, we did 
change the review to two years, and we made it a stand-alone 
committee also.
    Dr. Stewart, we would love to hear from you.

STATMENT OF DR. CRAIG A. STEWART, CHAIR, COALITION FOR ACADEMIC 
 SCIENTIFIC COMPUTING; ASSOCIATE DEAN, RESEARCH TECHNOLOGIES, 
                       INDIANA UNIVERSITY

    Dr. Stewart. Let me begin by thanking Chairman Gordon, 
Ranking Member Mr. Hall, Messrs. Hills and Carson of Indiana, 
and all Members of the House Science and Technology Committee 
for the opportunity to be here today.
    I am Chair of the Coalition for Academic Scientific 
Computation, or CASC. I am offering testimony as requested by 
Chairman Gordon regarding the President's Council of Advisors 
on Science and Technology 2007 Report, Leadership Under 
Challenge, Information Technology Research and Development in a 
Competitive World. To provide context for this testimony, CASC 
is an educational, non-profit organization dedicated to using 
advanced computing technology to accelerate scientific 
discovery for national competitiveness, global security, and 
economic success.
    There are a total of 53 CASC members, colleges, and 
universities, and research labs in 36 states and the District 
of Columbia. I note that Members of the Committee represent a 
total of 24 states, 19 of which are home to at least one CASC 
member.
    As stated in the PCAST Report, we must improve the 
networking and information technology ecosystem in the United 
States to maintain and extend our competitive advantage and 
innovation. The NITRD Program support of 13 federal agencies 
including DOD, DOE, DARPA, NASA, NIH, NIST, and NSF has 
accelerated information technology innovation and led to new 
insights in science, technology, and medicine. These advances 
have led to valuable changes in the private sector as we all 
know.
    CASC fully supports the overall recommendations of the 2007 
PCAST Report. The recommendations in that report, if well-
supported by finding and executed aggressively, will contribute 
greatly to continued U.S. leadership in networking and 
information technology.
    Without overarching endorsement as the key point of this 
testimony, CASC would like to make a few suggestions to 
emphasize and add to the PCAST recommendations. First, federal 
investment in NIT research and development will be most 
valuable in the long run if investment patterns in the many sub 
areas included within NITRD are as consistent as possible over 
time. The PCAST Report makes several important recommendations 
regarding workforce development. We agree with these 
recommendations and would like to suggest additional areas of 
emphasis. Programs that will increase the number of students 
who choose a major related to NIT after entering college 
undecided on a major and continue to strengthen and expand the 
emphasis on science, technology, engineering, and mathematics 
disciplines in primary and secondary education.
    We commend Chairman Gordon and the Members of the Committee 
as a whole for leadership in creating and supporting the 
development of the STEM program. We hope you might consider 
expanding it to include greater emphasis on computing in the 
future.
    CASC would also like to expand on the report's 
recommendation regarding a strategic roadmap for federal 
investments in high-end computing research and development. In 
addition to the recommendations made in the report, such a plan 
should implement methods for sustained support and maintenance 
of software critical to the U.S. networking and information 
technology agenda. This plan should also support the 
coordination of U.S. high-end computing facilities in a way 
that maximizes the total benefit to U.S. national interest by 
leveraging investments at the college, university, State, and 
regional levels in addition to federal investments.
    In closing, let me return to the title of the 2007 PCAST 
Report, Leadership Under Challenge. U.S. leadership is indeed 
under challenge in many ways across the globe. As regards, 
networking information technology, the current challenges are 
without precedent. Without strong investment, the United States 
is at risk of losing its longstanding position of global 
leadership in networking information technology. The 
consequences of that would be catastrophic. However, the 
recommendations made in the PCAST Report if enacted and well-
funded, will continue and extend U.S. leadership in networking 
information technology and fuel future U.S. global leadership 
and innovation generally. This will lead to continued and 
improved prosperity, health, and security for Americans and 
indeed all citizens of the world.
    Thank you again for the opportunity to appear before you 
today. I should note that my testimony this morning has been 
endorsed by a formal vote of CASC members. One CASC member's 
voting representative was unavailable due to travel. The 
remaining 52 have voted unanimously to endorse my testimony 
this morning. I hope that these remarks have been helpful to 
the Committee. I am happy to answer any questions now or at any 
time in the future.
    [The prepared statement of Dr. Stewart follows:]
                 Prepared Statement of Craig A. Stewart

1. Background and context

    I am pleased to have this opportunity to provide testimony to the 
House Science and Technology Committee in response to a request from 
Chairman Gordon. Chairman Gordon, in his letter of invitation to the 
Coalition for Advanced Scientific Computing, asked for comments on the 
President's Council of Advisors on Science and Technology (PCAST) 2007 
report Leadership Under Challenge: Information Technology R&D in a 
Competitive World\1\ and the merit of the recommendations therein. To 
provide context for this testimony, I serve as the chair of the 
Coalition for Advanced Scientific Computing (CASC) (http://
www.casc.org), an educational nonprofit 501(c)(3) organization with 53 
member institutions, representing many of the Nation's most forward 
thinking universities and computing centers. CASC is dedicated to 
advocating the use and development of the most advanced computing 
technology to accelerate scientific discovery for national 
competitiveness, global security, and economic success, as well as to 
developing a diverse and highly skilled 21st century workforce. My 
testimony this morning has been endorsed by a majority of the members 
of CASC, and represents the general consensus of opinion within CASC.
---------------------------------------------------------------------------
    \1\ President's Council of Advisors on Science and Technology 
(PCAST). 2007. Leadership Under Challenge: Information Technology R&D 
in a[0] Competitive World. http://www.nitrd.gov/pcast/reports/PCAST-
NIT-FINAL.pdf
---------------------------------------------------------------------------
    I also serve Indiana University as the Associate Dean for Research 
Technologies and the Chief Operating Officer for the Pervasive 
Technology Labs at Indiana University. As such, I am responsible for 
many of the advanced networking and information technology services 
provided to Indiana University researchers. Through support from the 
State of Indiana and Federal agencies, I am also responsible for 
services delivered to public and private sector researchers in Indiana 
and researchers at institutions of higher education throughout the U.S. 
I came to be involved in networking and information technology 
originally as a biologist. I thus value advanced technology first and 
foremost for what it can do practically to improve the quality of human 
life and our understanding of the world around us.

2. Key observations

    In their letter submitting the 2007 PCAST report, Co-Chairs John H. 
Marburger III and E. Floyd Kvamme summarized in two sentences the 
challenge facing the U.S. in networking and information technology 
(NIT):

         ``While the United States clearly is the global NIT leader 
        today, we face aggressive challenges from a growing list of 
        competitors. To maintain--and extend--the Nation's competitive 
        advantages, we must further improve the U.S. NIT ecosystem--the 
        fabric made up of high-quality research and education 
        institutions, an entrepreneurial culture, strong capital 
        markets, commercialization pathways, and a skilled NIT 
        workforce that fuels our technological leadership.''

    CASC strongly endorses this statement and the findings and 
recommendations included in the report. The key summary of the past, 
included on page 1, that ``. . .. the NITRD [Networking and Information 
Technology Research and Development] Program has by and large been 
effective at meeting agency and national needs'' is correct. Indeed, 
the NITRD program's support of fourteen Federal agencies, including the 
Department of Defense, Department of Energy, and DARPA, has accelerated 
innovation in information technology, leading to new insights and 
practical, valuable changes in industry (including improved fuel 
efficiency, health and medical care, homeland security, and the 
creation of many physical devices that improve our productivity and 
overall quality of life).
    The Community I represent fully supports the overall 
recommendations stated in the PCAST report. General George S. Patton 
stated, ``A good plan, violently executed now, is better than a perfect 
plan next week.'' The findings of PCAST are--overall--spot on. It is 
easy to quibble over details, but in general the recommendations, if 
executed aggressively, would be far better than inaction or 
continuation with the status quo in the NITRD Program.
    With that overarching endorsement as the key point of this 
testimony, we would like to make three additional points to emphasize 
and add to the PCAST recommendations regarding investment patterns over 
time, workforce development, and creation and implementation of a High 
End Computing Research and Development plan.

3. Pattern of investment over time

    Without strong, continued, and consistent investment in networking 
and information technology (NIT), the U.S. will not have the 
administrative and technical leadership to support consistent and 
directed change. Government investment in NIT will be of greatest value 
if there is consistency in levels of investment over time. The men and 
women who execute the national NIT agenda represent a tremendous store 
of experience, skill, and knowledge. The uniform experience of CASC 
members is that when there are strong variations in funding in specific 
areas of NIT over time, lean times for particular areas of research in 
NIT cause skilled professionals to leave public sector NIT research. 
This means that years of investment by the government in developing a 
knowledge and experience base in individuals who desire to pursue a 
career in the public service sector are lost to the public sector, not 
to return even when funding for particular areas is subsequently 
restored. U.S. global competitiveness, innovation, and homeland 
security are thus best served by consistent and strong investment in 
basic NIT research; advanced NIT facilities to support advanced 
research and development in science, engineering, and technology; and 
research in developing and delivering the next generation of such 
advanced NIT facilities.

4. Workforce Development

    The PCAST report makes several important recommendations regarding 
workforce development aimed at increasing the supply of professionals 
with Bachelor's, Master's, and doctoral degrees in NIT areas. The 
recommendations focus on actions that should increase the supply of 
skilled NIT professionals in the U.S. in the short-term. This is 
critically important, and CASC supports all of those recommendations. 
We would like to make two suggestions for funding emphasis that are in 
addition to the recommendations made in the report.
    Recommendation: Increase the number of students receiving a 
Bachelor's degree in a field related to NIT by funding programs that 
encourage students to explore NIT majors. An effective way to do this 
would be to support programs that use tele-collaboration technologies 
to enhance the NIT-related course offerings at small colleges and 
universities, particularly those that serve large populations of 
students from groups traditionally under-represented among NIT 
professionals. For example, students at Jackson State University, an 
HBCU (Historically Black College or University), and Navajo Technical 
College (a college located within the Navajo Nation) took, via 
teleconference, computer science courses from IU School of Informatics 
Professor Geoffrey C. Fox. Students who took these courses indicated 
that they found the classes inspirational and that they affected their 
career plans. This activity was enabled by relatively modest funding 
from the National Science Foundation. Similarly, Thomas Sterling, the 
inventor of Beowulf computing and a computer science professor at 
Louisiana State, has taught classes in high performance computing 
classes via tele-collaboration to students of the University of 
Arkansas and Louisiana Tech. Increased investment in collaborative 
distance education, either in absolute terms or as a relative share of 
the NITRD budget, would have disproportionately great long-term impact 
on the supply of professionals with college degrees in NIT.
    Recommendation: Continue to strengthen and expand the emphasis on 
STEM (Science, Technology, Engineering, and Mathematics) disciplines in 
elementary and secondary education, so as to increase the absolute 
numbers and relative percentages of high school graduates who plan to 
enter college in an NIT-related discipline. We would like to commend 
Chairman Gordon for his leadership in creating and supporting the 
development of the STEM program. The uniform experience of CASC member 
organizations is that within their home states, there are areas where 
the educational system and social environment do not provide adequate 
incentive or opportunity for our young people to become excited by STEM 
disciplines and then acquire the primary and secondary education needed 
to successfully pursue an undergraduate (and then advanced) education 
in NIT-related areas. The PCAST report recommends steps to increase the 
importing of talent to the U.S. from abroad at the same time that we 
are losing the opportunity to develop our own talent. Each CASC 
institution can provide data to support this. In my home State of 
Indiana, for example innately bright young people in the rural 
southwest and urban northwest of the state are lost to the U.S. 21st 
century workforce because they are provided neither the inspiration nor 
the education that would enable them to pursue careers in NIT. We 
recognize that this area is beyond the statutory responsibility of 
NITRD, but it is important and related to NITRD and the PCAST 
recommendations. Chairman Gordon, we hope that you might now consider 
leveraging the successful STEM program by expanding it to include 
Computing.

5. High End Computing Research and Development Roadmap

    The PCAST report makes several recommendations regarding 
investments in High End Computing. We endorse those recommendations and 
would like to expand on one of the recommendations (made on page 40 of 
the PCAST report):

         ``Recommendation: The NITRD Subcommittee should develop, 
        implement, and maintain a strategic plan for Federal 
        investments in HEC [high-end computing] R&D, infrastructure, 
        applications, and education and training. Based on the 
        strategic plan, the NITRD Subcommittee should involve experts 
        from academia and industry to develop and maintain a HEC R&D 
        roadmap.''

    As noted in the PCAST report, such a roadmap should be based on the 
2004 Federal Plan for High-End Computing.\2\ Since the writing of that 
2004 report, several new developments in the NIT ecosystem have taken 
place, creating new opportunities for increased innovation, more 
widespread practical benefits resulting from those innovations, and 
enhanced leverage of federal investments. CASC offers two suggestions 
regarding the plan called for in this recommendation, to be added to 
the bullet points listed on page 40 of the PCAST report. A strategic 
plan for federal developments in HEC R&D should:
---------------------------------------------------------------------------
    \2\ National Science and Technology Council. Federal Plan for High-
End Computing. Washington, D.C.: May 2004, available at http://
www.nitrd.gov/pubs/2004<INF>-</INF>hecrtf/
20040702<INF>-</INF>hecrtf.pdf

        <bullet>  Implement methods for sustainable support for 
        software development critical to the U.S. NIT agenda. This must 
        include supporting creation of complexity-hiding interfaces 
        that will dramatically expand the ability of scientists and 
        engineers generally to leverage and effectively use HEC 
---------------------------------------------------------------------------
        infrastructure.

        <bullet>  Support the coordination of U.S. cyberinfrastructure 
        that maximizes the total benefit to U.S. national interests by 
        taking best advantage of investments at the college, 
        university, State, and regional levels, in addition to federal 
        investments.

    I would like to briefly explain these points below.
    Implement methods for sustainable support for software development 
critical to the U.S. NIT agenda. This must include supporting creation 
of complexity-hiding interfaces that will dramatically expand the 
ability of scientists and engineers generally to leverage and 
effectively use HEC infrastructure. The Federal Government needs to 
significantly increase its investment in research, development, and 
sustained support of important software tools. As noted in the PCAST 
report, software critically important to U.S. global competitiveness is 
not always viable as a commercial product, yet sustaining it over time 
is critical to U.S. interests. Sometimes open source software 
development is a solution. A new approach--community source software--
is emerging within universities to coordinate and leverage efforts in 
development of educational and financial management software. This 
approach may or may not be applicable to scientific software. But it is 
notable that a relatively modest investment by the Mellon Foundation 
enabled the Sakai Collaboration\3\ to develop a completely new approach 
to sustainability of educational software. Similarly a modest 
investment by the William and Flora Hewlett Foundation enabled the 
Connexions\4\ project to develop a global open and free repository for 
authors, instructors, and students to share and develop educational 
material. CASC recommends that the Federal Government investigate and 
support new models for scientific software sustainability in addition 
to those already in use.
---------------------------------------------------------------------------
    \3\ http://sakaiproject.org/
    \4\ http://cnx.org/
---------------------------------------------------------------------------
    An important new trend in HEC software environments is the concept 
of a Science Gateway. A Science Gateway is a web-accessible tool that 
provides end-to-end support for a scientific work flow, such as the 
prediction of tornadoes or the analysis of an earthquake or a genome. 
For example, one Science Gateway developed with NSF support provides an 
intuitive interface that allows a weather expert to select input data 
from Doppler radars, process multiple predictions of tornado formation 
using some of the U.S.'s fastest supercomputers, and produce a 
visualization on a laptop computer in time to send emergency warnings 
and save lives. Science Gateways provide this sort of sophisticated 
capability to scientists and engineers without requiring that such 
people, who have invested years in becoming experts in their own 
specific disciplines, also invest years in becoming expert 
computational scientists. Using HEC systems to predict tornadoes, 
analyze genomes, understand earthquakes, etc., should be as easy--for 
researchers who understand the underlying science--as buying a book 
over the Internet; identifying and understanding the critical aspects 
of terabytes of data should be like starting with a web-accessible 
image of North America and zooming in on your own back yard. For 
decades, national and discipline-specific agendas of a few grand 
challenge problems in high end computing have catalyzed innovation 
within the U.S. Today there are thousands of important theoretical and 
practical problems that can and will be solved if the HEC 
infrastructure of the U.S. can be made more easily usable. In addition, 
such complexity-hiding interfaces give undergraduate and even high 
school students the opportunity to use high-end computing, which will 
aid the STEM education and 21st century workforce development I have 
already recommended.
    Support for development of complexity-hiding interfaces must be in 
addition to the much-needed investments in software development on 
which such gateways depend and which are already called for in the 
PCAST report. For example, new programming models and approaches to 
programming are needed to take advantage of emerging HEC architectures, 
particularly multi-core processors and specialized computational 
hardware. In addition, today's high quality (including 3D) computer 
displays, enhanced by research and development in visualization, can 
provide new tools for extracting insight from the massive streams of 
data now produced by digital instruments.
    Support the coordination of U.S. cyberinfrastructure that maximizes 
the total benefit to U.S. national interests by taking best advantage 
of investments at the college, university, State, and regional levels, 
in addition to Federal investments. While the term cyberinfrastructure 
is not used in the PCAST 2007 report, it is useful in a discussion of 
NIT and national competitiveness. The first usage of the term 
cyberinfrastructure that I can find is from a 1998 press briefing by 
Richard Clarke, then National Coordinator for Security, Infrastructure 
Protection, and Counter-terrorism.\5\ The term became widely used after 
its inclusion in a very important report by a blue-ribbon committee 
commissioned by the NSF.\6\ There are several definitions of 
cyberinfrastructure; the one I like best (admittedly developed by my 
group at Indiana University) is as follows:
---------------------------------------------------------------------------
    \5\ Press briefing by Richard Clarke, National Coordinator for 
Security, Infrastructure Protection, and Counter-Terrorism;; and 
Jeffrey Hunker, Director of the Critical Infrastructure Assurance 
Office. 22 May, 1998. http://www.fas.org/irp/news/1998/05/980522-
wh3.htm
    \6\ Report of the National Science Foundation Blue-Ribbon Advisory 
Panel on Cyberinfrastructure. http://www.nsf.gov/od/oci/reports/
atkins.pdf

         ``Cyberinfrastructure consists of computing systems, data 
        storage systems, advanced instruments and data repositories, 
        visualization environments, and people, all linked together by 
        software and high performance networks to improve research 
        productivity and enable breakthroughs not otherwise possible.'' 
        \7\
---------------------------------------------------------------------------
    \7\ Indiana University Cyberinfrastructure Newsletter, March, 2007. 
http://racinfo.indiana.edu/newsletter/archives/2007-03.shtml

    Cyberinfrastructure is indeed the foundation for innovation for our 
nation. Leadership class systems within the national 
cyberinfrastructure are funded by NITRD, and that is likely to continue 
for some time. However, the broad foundation for innovation will best 
serve the needs of the Nation if Federal leadership can aid the 
coordination of the collective cyberinfrastructure assets funded by 
NITRD agencies and those funded by other sources, including colleges, 
universities, states, and regional consortia. The resulting extension 
and leverage of Federal investment in NIT, HEC, and cyberinfrastructure 
would be tremendous and far-reaching, enabling the U.S. to increase its 
global competitiveness far beyond what would be capable on the basis of 
---------------------------------------------------------------------------
federal investment without such coordinated leverage.

6. Conclusion

    In conclusion, let me return to the starting point of the PCAST 
report. NITRD has been tremendously important to U.S. innovation and 
global competitiveness, the quality of life of Americans, and the 
security of our homeland. CASC members endorse the recommendations 
contained in the PCAST report, and hope that the comments made in this 
testimony regarding particular areas of emphasis or addition of 
recommendations will be of value to this Committee as it embarks upon 
activities to plan for an even better future of new, important, and 
practical accomplishments through legislation related to NITRD.
    The 2007 PCAST report is titled Leadership Under Challenge: 
Information Technology R&D in a Competitive World. U.S. leadership is 
indeed under challenge in many ways across the globe. As regards 
networking and information technology, these challenges are 
unprecedented. Without strong investment in NIT, the U.S. is at risk of 
losing its longstanding position of global leadership, and the 
consequences of this would be catastrophic. However, the 
recommendations made in the PCAST report, if enacted into legislation 
and well funded, will continue and extend U.S. leadership in network 
and information technology, and will fuel future U.S. global leadership 
in innovation. This will lead to continued and improved prosperity, 
health, and security for Americans and indeed all citizens of the 
world.
    Thank you for the opportunity to appear before you today. I am 
happy to answer any questions now or at any time in the future.

                     Biography for Craig A. Stewart
    Craig Stewart is Associate Dean for Research Technologies and Chief 
Operating Officer for the Pervasive Technology Labs at Indiana 
University. In these roles, Dr. Stewart oversees activities conducive 
to and supporting research in advanced information technology. He 
received his Ph.D. in Biology from Indiana University in 1988, and has 
held a variety of positions in Information Technology at Indiana 
University. His longstanding career interests are in high performance 
computing and computational biology. In high performance computing his 
areas of concentration are HPC architectures and grid computing. In the 
area of computational biology his areas of concentration are 
computational phylogenetics, computationally intensive simulation 
methods in systems biology, and biomedical data grids. Dr. Stewart is 
currently chair of the Coalition for Academic Scientific Computing.
    Dr. Stewart served as guest editor for Bioinformatics: transforming 
biomedical research and medical care, the November 2004 special issue 
of Communications of the Association for Computing Machinery. He has 
co-authored numerous papers, including Measuring quality, cost, and 
value of IT services in higher education for the 2001 American Quality 
Congress, Parallel computing in biomedical research and the search for 
petascale biomedical applications for Advances in Parallel Computing in 
2004, and Implementation of a distributed architecture for managing 
collection and dissemination of data for fetal alcohol spectrum 
disorders research for Grid Computing in Computational Biology in 2006. 
Dr. Stewart has also presented many tutorials, including a 2005 
introduction to computational biology at High Performance Computing 
Center, Stuttgart, Germany. He also helped lead two winning projects at 
the premier annual international supercomputing conference: Global 
Analysis of Arthropod Evolution, the 2003 HPC Challenge winner; and 
Using the Data Capacitor for Remote Data Collection, Analysis, and 
Visualization, the 2007 Bandwidth Challenge winner.
    Dr. Stewart is an active participant in several federally funded 
grants, including: TeraGrid Resource Partners (NSF); Acquisition of 
PolarGrid: Cyberinfrastructure for Polar Science (NSF); the Open 
Science Grid (NSF/NIH); and Major Research Infrastructure: Data 
Capacitor (NSF).

    Chairman Gordon. Thank you, Mr. Stewart. As I mentioned 
earlier, we are in the process of trying to gain more 
information. The Academy will be an important part of that 
information. As you know, Baron Hill is fortunately your Member 
of Congress, and so he will be taking a direct row on this and 
we want you to be a conduit for information for the Academy and 
for Baron to play a role in it. Thank you very much.
    And finally, Mr. Don Winter.

STATEMENT OF MR. DON C. WINTER, VICE PRESIDENT, ENGINEERING AND 
   INFORMATION TECHNOLOGY, PHANTOM WORKS, THE BOEING COMPANY

    Mr. Winter. Good morning, Mr. Chairman, Ranking Member Hall 
and Members of the Committee. I am Don Winter, Vice President 
of Engineering and Information Technology at Boeing Phantom 
Works. I am grateful for the invitation to speak with you on 
the NITRD Program, specifically those focused on cyber-physical 
systems.
    I was impressed with the way in which these recommendations 
were developed, bringing stakeholders from government, 
academia, and industry together with a common focus on national 
competitiveness.
    PCAST Report builds a sound case for the recommended 
research focus areas, including the area of specific interest 
to me, the cyber-physical systems.
    The subject of research on cyber-physical systems or CPS is 
of great importance to the aerospace industry as a whole and to 
our nation. The use of CPS is increasing, their complexity is 
growing at an exponential rate. Demands for higher performance 
and lower cost for commercial and military systems are driving 
next-generation systems to be highly networked and highly 
dynamic in nature. Moreover, systems will need to be designed 
to exhibit robust and predictably safe behavior in these highly 
dynamic environments. Future aerospace systems will require 
cyber-physical systems of even greater complexity. Systems will 
operate with high degrees of autonomy or collaborate among 
themselves to achieve dramatic gains in operational 
effectiveness. New cyber-physical system attributes such as 
active resource management, dynamic scheduling, and software 
enabled control mode changes will be needed to support these 
behaviors. These emerging challenges call for cyber-physical 
systems on a grand scale. Research that addresses validation 
and verification of the complex interactions between system 
modules is critical. Without advances in these technologies, 
the costs and risks of developing next generation cyber-
physical systems of this scale may be prohibitive and have a 
significant impact on the industry.
    Many of our systems are safety-critical and require 
certification by the FAA or equivalent military authority. Many 
of our military systems will need to support coalition 
operations with multi-level security requirements. Our systems 
must also be hardened to withstand a future cyber attack. 
Because of these unique requirements and the relatively small 
number of end systems, we do not expect to see large investment 
from the commercial IT sector in these technologies. In order 
to achieve these cross-cutting capabilities, we will need 
advances in design technologies such as model-based development 
tools and validation environments to build systems rapidly and 
affordably. Moreover, we will require research and product 
focus technology in software reuse, real-time theory, 
languages, and product line CPS architectures. It can be 
applied to many different end systems.
    We have achieved some measure of progress. Over the past 10 
years, Boeing has developed metal-ware based product line, CPS 
architectures, notably the bold stroke architecture for 
tactical aircraft avionics and the system of systems common 
operating environment are SOSCO for the future combat systems. 
To support our military system developments, and substantial 
gains in productivity were realized.
    What is the way ahead? Efforts today that have been 
fragmented across industry and limited by internal funding 
constraints.
    CPS investments cross multiple technology domains will 
require an industry level critical mass to achieve the needed 
result. Other industries, notably automotive, energy management 
and control, and medical face similar CPS trends and pressures 
and have expressed their desire to participate. WE need a 
national strategy in which long-term CPS technology needs are 
addressed by combined government and corporate investment. 
Boeing for its part can focus long-term CPS investments of 
collaborative research in which we provide the challenge 
problems and in-kind participation and government industry 
research consortia. Although I don't speak for them, I am 
confident my industry partners are willing to do the same. We 
also need to develop new ways to facilitate the transition of 
research products back into industry and into our products.
    The point is critical, and again, as a matter of national 
competitiveness, The European Union's Advanced Research and 
Technology for Embedded Intelligence Systems, ARTEMIS, program 
is funded by a public-private investment of over $7 billion and 
is persuading R&D to achieve ``world leadership in intelligent 
electronic systems'' by 2016. European industry is fully 
partnered with government and academia in ARTEMIS. From our 
perspective, an active partnership of this nature in CPS is 
essential to reap the benefits of this advanced research. This 
partnership needs to reach deeper than the arm's-length 
approach used for industry involvement today.
    In summary, we support the proposed expansion of the NITRD 
program's research objectives to address cyber-physical systems 
and we look forward to the opportunity to participate. That 
concludes my testimony. I would be pleased to respond to your 
questions.
    [The prepared statement of Mr. Winter follows:]
                  Prepared Statement of Don C. Winter
    Good morning, Mr. Chairman, Ranking Member Hall and Members of the 
Committee.
    I am Don Winter--Vice President of Engineering and Information 
Technology at Boeing Phantom Works. I am grateful for the invitation to 
speak with you on this subject of research on cyber-physical systems 
(CPS), a topic of great importance to the Boeing Company, the aerospace 
industry as a whole, and to our Nation. I have a great interest in this 
subject because of my current position managing an annual R&D budget of 
over $300M and my past position as one of the founders of the Bold 
Stroke R&D initiative at Boeing, focused largely on advancing the state 
of the art in cyber-physical systems.
    Boeing has a somewhat unique perspective on cyber-physical systems 
due to our prominent position in both the military and commercial 
aerospace markets. Cyber-physical systems are pervasive at Boeing, and 
in the aerospace industry at large. They are becoming increasingly 
prevalent in other sectors, notably automotive and energy management. 
Their importance to our products is huge and their complexity is 
growing at an exponential rate. Demands for higher system performance 
and lower system cost for commercial and military systems are driving 
next generation systems to be highly networked and highly dynamic in 
nature. Lower recurring and maintenance costs will be derived from 
integrated vehicle health management that enhances system reliability 
and reduces logistics and maintenance costs. Moreover, systems will 
need to be designed to exhibit ``predictably safe'' behaviors in an 
uncertain environment.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In the 70's and 80's aerodynamics and structures accounted for 
nearly 90 percent of the development cost of a transport aircraft, with 
cyber-physical system development accounting for less than 10 percent. 
The trend has reversed, and cyber-physical system design, development, 
validation and certification account for nearly half of development 
costs for current generation system, and for next generation systems 
this percentage is expected to rise to 50 percent or more.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Several examples are germane and illustrate the exponential growth 
in software and system complexity of our modern systems. The 747-400 
first flew in the late 1980's. The size of the software for the on-
board cyber-physical systems is on the order of 10MB. The Boeing 777 
first flew in the early 1990's. Its flight software size is an order of 
magnitude larger--100MB (on the order of 10 million SLOC). As we evolve 
to systems such as 787, software size and system complexity will be 
increased by two or more orders of magnitude.
    These are cyber-physical systems on a grand scale. Research that 
can support validation and verification of the complex interactions 
between system modules is highly important. Without advances in these 
technologies, the cost and risk of developing next generations of 
cyber-physical systems of this scale may be prohibitive, and have a 
significant impact on the aerospace industry.
    The trends towards CPS complexity are not exclusive to the 
aerospace industry. The automotive industry has a similar experience. 
For the last several years, Boeing has been participating in CPS forums 
across aerospace, automotive, and energy sectors. At a May 2007 CPS 
Roundtable, representatives from USCAR (the U.S. Council for Automotive 
Research--an umbrella organization for collaborative research among 
Chrysler, Ford, and General Motors) reported similar trends. Currently 
the percentage of vehicle cost due to electronics content is 
approximately 30 percent. The electronics content is increasing in 
complexity and number of functions. USCAR likewise indicated that ``the 
most difficult issues lie not in the design of the software in 
individual modules, but in the interactions between different modules 
and components--i.e., integration of embedded systems composed of 
heterogeneous components designed and implemented by different 
suppliers.''
    Cyber-physical systems are pervasive in other military systems. 
Emerging systems (manned and unmanned) are incorporating greater 
intelligence and autonomy. Collaborative, network-enabled operations 
between multiple systems are becoming the rule rather than the 
exception. The CBO (published in, ``The Army's Future Combat System 
Program,'' April 2006) has indicated that at least 34M lines of 
software code, much of it for CPS, will be generated for Future Combat 
Systems--about twice current estimates for the Joint Strike Fighter. 
Today's generation of fighters (figure below) incorporate many cyber-
physical systems. These systems operate in highly dynamic environments 
with real-time mission specific behaviors. This imposes challenges on 
the cyber-physical systems in the areas of networking, information 
management, verification, validation, and certification, to mention a 
few.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Future aerospace systems will require cyber-physical systems of 
even greater complexity. Systems will operate with autonomy and will 
collaborate among themselves to provide vast gains in operational 
effectiveness. Enabling capabilities in active resource management, 
dynamic scheduling, and software enabled control mode changes will be 
needed to support these behaviors. Systems of this sort have flown 
today in research focused demonstrations. They will be the norm in the 
future.
    Estimates on source lines of code for systems beyond the current 
generation of developing systems are several orders of magnitude 
higher--and will likely exceed one billion lines of code.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Requirements for cyber-physical systems and software are far more 
stringent than those for typical office automation applications. Our 
systems must support real-time behavior. We require ultra-high 
reliability and many of our systems are safety critical and require 
certification by the FAA or equivalent military authority. While the 
occasional ``Blue Screen'' may be painful in the office environment, it 
can have extreme consequences in the air. Many of our military systems 
need to be designed to support coalition operations with multi-level 
security requirements. Our systems must also be hardened to withstand 
future cyber attacks by adversaries. Because of these unique 
requirements and the relatively small numbers of systems, we do not 
expect a large investment from the commercial IT sector in these 
technologies.
    In order to achieve these cross-cutting capabilities, we will need 
advances in technologies such as model-based development tools, 
methods, and validation environments to build systems rapidly and 
affordably. Moreover, we will require product-focused technologies 
including software reuse, architectures, real-time theory, languages, 
and product line architectures to achieve system affordability by 
recouping investment across multiple system developments.
    We have achieved some measure of progress. Several years ago, 
Boeing developed middleware-based product line architectures to support 
our military system developments. Sizable investments were made in new 
CPS architectures and infrastructures (e.g., Bold Stroke and the FCS 
System of Systems Common Operating Environment) and substantial gains 
in productivity were realized. The middleware-based approach is 
critical since the days where military systems lead and dominate the IT 
industry are long past. Specifically, CPS architectures like Bold 
Stroke (illustrated below) were developed in part to provide layers of 
isolation between the avionics software for DOD systems like F/A-18 and 
F-15 from hardware and operating systems from the commercial IT 
industry.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The challenges today are far greater than those faced in even the 
recent past and continue to grow as individual systems evolve, operate 
with greater autonomy and intelligence, and operate as part of a 
networked system of system. The challenges grow even larger with future 
generations of unmanned air systems operating in national air space.
    What is the way ahead? Efforts to date have largely been fragmented 
across the industry and limited by internal funding constraints. CPS 
investments cross multiple technology domains and will require 
industry-level critical mass to achieve the needed results.
    We need a national strategy in which long-term CPS technology needs 
are addressed by combined government and corporate investment. Boeing, 
for its part, can focus our long-term CPS investments on collaborative 
research in which we provide challenge problems and in-kind 
participation in government-industry research consortiums. I'm 
confident our industry partners are willing to do the same. We also 
need to develop new ways to facilitate the transition of research 
products back to industry and into our products. This point is critical 
and is a matter of national competitiveness. The European Union's (EU) 
Advanced Research and Technology for Embedded Intelligence and Systems 
(ARTEMIS) program is funded by a public-private investment (over $7B in 
mid-2007 dollars) and is pursuing R&D to achieve ``world leadership in 
intelligent electronic systems'' by 2016. European industry is fully 
partnered with academia in ARTEMIS. From our perspective, partnership 
between industry and academia in CPS is absolutely essential to reap 
the benefits of this advanced research. This partnership needs to reach 
deeper than the rather ``indirect'' approach used for industry 
involvement today.
    In summary, we support the proposed expansion of the NITRD 
program's research objectives to address cyber-physical systems and we 
look forward to the opportunity to participate.
    That concludes my testimony. I'd be pleased now to respond to your 
questions.

                      Biography for Don C. Winter
    Don has been employed at Boeing and its predecessor companies for 
31 years. He holds BS and MS degrees in Physics from the University of 
Missouri and an MBA from Washington University. Don held a number of 
avionics design and systems engineering assignments on the Tomahawk 
cruise missile program from 1977 to 1988. He joined the Mission 
Planning Division of McDonnell Douglas Missile Systems Company in 1988, 
serving in program management roles on the Tomahawk Mission Planning 
Upgrade and (UK) Automated Mission Planning Aid (AMPA) programs, 1988-
91. In 1992 he was named Deputy Program Manager for the USAF Air Force 
Mission Support System (AFMSS). In 1995, he joined the Production 
Aircraft Advanced Design organization as Manager--Mission Systems, and 
founded the Common OFP initiative, which later served as the foundation 
for the Bold Stroke advanced avionics program. He led CRAD programs 
under the Phantom Works Open Systems Architecture technology thrust 
from 1998 to 2001, when he became Director of the overall thrust. He 
then led the PW Network Centric Operations thrust, focused on the 
development of key technologies and tools for network enabling Boeing 
systems and products, from its inception in 2003 through mid-2005. Don 
then assumed leadership of the Integrated Command and Control 
organization within the C3ISR Solutions business segment of Boeing 
Integrated Defense Systems. In this capacity Don led the development 
and execution of C2 market shaping, product development and business 
pursuit strategies. Most recently, Don returned to Phantom Works to 
lead the Engineering and Information Technology organization, a team of 
1,000 engineers and scientists performing leading edge research 
spanning domains ranging from aeronautics and propulsion to avionics, 
sensors and advanced information technology. Don has authored numerous 
technical publications and currently serves on advisory boards at the 
University of Cambridge, the University of California-Berkeley, 
Vanderbilt University and Washington University.

                               Discussion

    Chairman Gordon. Mr. Miller, as you know, the PCAST top 
recommendation was the cyber-physical security, and we do want 
to get more involved in that.
    At this point we will open the first round of questions. 
The Chair recognizes himself for five minutes. What I would 
like to do is I have a couple of questions just to put to the 
panel in general, and the first is the PCAST assessment of 
NITRD program indicates that it should rebalance the funding 
portfolios by increasing support for important problems that 
require large-scale, longer-term multi-disciplinary R&D, 
increasing emphasis on innovation and therefore high risk but 
potentially higher payoff expirations. Do you agree with this 
recommendation? If so, what should be done to implement support 
for such large-scale innovative research projects? Dr. Greer, 
why don't we start with you?
    Dr. Greer. Thank you, Chairman. I think we would agree with 
that recommendation of the PCAST assessment that these 
investments in high risk but high payoff in multi-disciplinary 
undertakings are important, critical in the current IT 
landscape. As I said, our strategic plan focuses on identifying 
challenges that can only be approached by agencies working 
together and the corresponding technical issues to achieve 
that.
    Chairman Gordon. And can you do that on existing funding or 
does that require additional funding?
    Dr. Greer. I think we would look to both of those 
possibilities, that refocusing some existing funding on these 
shared projects, identifying those things that would 
substantially enable an agency's mission if it could be 
accomplished. Then that merits some focusing of funding. There 
may be other opportunities for added funding in that same 
category.
    Chairman Gordon. Will you be identifying those areas of 
opportunities and funding?
    Dr. Greer. Yes, that is part of our strategic planning 
process to look for what are the categories of this type, the 
multi-agency, higher-level challenges that could be taken on by 
a joint effort across agencies in which the missions of the 
individual agencies are supported by this joint effort.
    Chairman Gordon. Would anyone else like to comment on that? 
Okay.
    Dr. Reed. Well, I should say I hope I agree with the 
commendation in this case since I helped write it. Just a 
reminder that the PCAST was not the first time that this 
observation has been made. If you go back and you look at the 
1990--report, the last systemic evaluation of the program, it 
recommended something quite similar, something that was called 
out as expeditions to the--intended to be large-scale 
integrated investments--technology that could have a 
transformative effect. And I agree with Dr. Greer, it will be 
quite a mix of targeted reallocation and most likely some 
additional investment.
    Chairman Gordon. Has this recommendation been made before 
or are they behind the curve on getting something done?
    Dr. Reed. There were responses to those recommendations, 
perhaps not at the scale that the original recommended, some 
due to some financial constraints. I think it is difficult to 
change the culture of investment because again, it is not just 
an agency response, it is a community response to the changes 
that the Federal Government induces. And there are strong 
incentives among the community to continue in many cases the 
status quo. So it is not just a government issue, it is a 
community education issue about the--and the risk of----
    Chairman Gordon. I only have five minutes also, so let me 
get to my second question. PCAST also recommended that NITRD 
Program provide increased support for research on software but 
does not cite specific research needs where the current program 
is deficient. Software is a perennial area of weakness, and 
information technology and an area in which NITRD Program 
currently allocates resources. What is missing is software 
research resources limited or idea limited? And what research 
is needed to make greater progress for improving the 
capabilities and reliable software. And I think, Dr. Reed, we 
should probably start with you on that one.
    Dr. Reed. I think it is a question of scale, and to hark 
back to something that Mr. Winters said, as an example, cyber-
physical systems. What is happening is our software systems are 
growing exponentially in size and complexity but perhaps even 
more worrisome is that they are not isolated. They can control 
our physical environment in all kinds of day-to-day ways, from 
national infrastructure to our personal experiences. And the 
search portfolio, back to the previous question, I think the 
challenge is to look in at how we address software at large 
scale. There is lots of research on the small-scale software 
issues but how to deal with large, complex systems where a 
small group is unlikely to understand its behavior, its 
reliability, and its dynamics. There are some deep research 
issues there. Some innovation is required. There are questions 
frankly we don't know the answers to. It is not even in some 
cases clear how to approach solutions to the problems.
    So the basic research, but there is also a scale issue 
about approaching a problem that is challenging at the moment 
in academics.
    Chairman Gordon. If I can ask, and I will try to be quick 
with this, this is the situation we run into so often is there 
is simply not enough money being invested. Now, we can get 
into, you know, what are best parties, that sort of thing. I 
think we need to do it through efficiencies in two ways. 
Certainly the interagency is an excellent approach, and I 
compliment what you have done. The second is whether or not 
these are appropriate areas for international cooperation. You 
know, what is our parochial interest here or first to market 
interest versus international collaboration in terms of trying 
to bring some economy to the research? Would you all give me 
some quick thoughts on that?
    Mr. Winter. I will give a couple of thoughts. I think that 
we have examples already of international cooperation in our 
business in areas considered to be infrastructure issues 
versus, you know, areas of proprietary or competitive 
advantage. We are not in the software business or the IT 
business. Fundamentally, we are in the system business, the 
aerospace system business. And we believe areas such as cyber-
physical system, infrastructure investment, is something we are 
willing to do in a collaborative basis with our competitors, 
with academia, and with international----
    Chairman Gordon. Well, let me ask you a quick question 
again. Is there any existing vehicle for that type of 
collaboration now, any multinational agency or anything that 
you know of? Dr. Greer.
    Dr. Greer. This is an important question. There are areas 
of NIT that are inherently international. The Internet itself 
is global. Cyber security is a global issue. In each of those 
areas, an area of large-scale networking, for example, there 
are a series of organizations that manage the standards 
development that manage the network operation and so on. So in 
each of those separate areas, there are international 
organizations. I think the challenge is in coordinating across 
those international bodies, particularly in the area that Dr. 
Reed has described, fundamental research, the software science, 
the theory of mathematics.
    Chairman Gordon. My time is up, but I would like for you if 
you have an opinion to respond to us again in this aspect of 
limited resources but not limited needs, where you think there 
might be areas for international cooperation, you know, where 
they are already going on, those other agencies, and should 
there be, you know, whatever coordinated body. In other words, 
how can we get better bang for our buck here without harming 
ourselves in a first to market or proprietary way.
    Thank you, and excuse me, Mr. Hall, for taking a little 
time there. You are certainly recognized.
    Mr. Hall. You are the Chairman. Mr. Winter, you mentioned 
ARTEMIS. You mentioned the need for the United States to have 
something similar to the EU public/private partnership, 
research, technology, and so on and so forth called ARTEMIS. 
Although termed an EU program, isn't it true that industry 
contributes more than half of the funding for this and was 
responsible for the total start-up and operational costs of 
ARTEMIS? Is that true?
    Mr. Winter. Yes, this is under the European Framework 
Program which is a model for collaborative government, private-
sector investment.
    Mr. Hall. Do you think the U.S. industry would commit to 
the same level?
    Mr. Winter. Yes, I do.
    Mr. Hall. Would Boeing?
    Mr. Winter. Yes.
    Mr. Hall. Dr. Reed, would Microsoft?
    Dr. Reed. Microsoft already is in many areas, so I have no 
doubt about that.
    Mr. Hall. You think our own industry is up to funding at a 
greater extent?
    Mr. Winter. I think we are already doing it to a large 
degree and it is a matter of coordination, being provided by 
nationally led activity, supplemented by some public funding 
for the academic sector. I think it is more of a matter of 
channeling investments we are already making.
    Chairman Gordon. Mr. Hall, you raised a very good point. 
Could you also respond to the Committee on how we could do 
that, your suggestions in that area? I think Mr. Hall raises a 
very good point. Thank you.
    Mr. Hall. Do we await that? Oh, no, no.
    Chairman Gordon. No response. They will get it to us in 
writing.
    Mr. Hall. All right. Okay. I think my time is up. I yield 
back.
    Chairman Gordon. Mr. McNerney is recognized for five 
minutes.
    Mr. McNerney. Thank you, Mr. Chairman. First of all, I want 
to remark on a comment Dr. Stewart made. You recommended 
consistent federal funding, and I just want to say that I feel 
your pain on this. I spent my career in the renewable energy 
business, and the production tax credits came and they went and 
the industry suffered immensely from those cycles. And I am 
sure that federal funding on a consistent basis would be better 
than just about anything else. But then I also echo the 
Chairman's words on this, we can authorize all we want in this 
committee. If there is not enough money in the kitty, it is not 
going to happen. And so Dr. Reed mentioned that 86 percent of 
the funding is coming from one single federal agency, and that 
has its advantages because it allows better coordination but it 
has a disadvantage. I didn't quite understand what the 
disadvantages were if you would elaborate on that a little bit, 
Dr. Reed?
    Dr. Reed. Certainly. Historically as I said, the diversity 
of agencies had different approaches, and by nature of the 
agencies and because they have differing missions and often 
there is a pipeline of technology process and research that 
leads to its impact in commercial industries. If you look, for 
example, at some of the major technologies that we take for 
granted now, there is about a 20-year pipeline from basic 
research until they become billion dollar or more industries. 
But in the federal context, that often meant a curiosity 
driven, single investigator research cannot get by, researchers 
are typically academia funded by the National Science 
Foundation. DARPA on the other hand tended to focus on much 
more goal-directed outcomes, larger scale projects, building 
advanced prototypes in collaboration with industry. But it 
built on ideas that had often been explored years before by 
researchers funded by the National Science Foundation. So that 
interplay of agencies meant that there were different ideas 
that could be picked up and explored with different mechanisms. 
It goes back to the interagency collaboration, coordination 
mechanism, how that diversity created a variety of approaches 
to innovation. And what has happened is we have lost some of 
that diversity. It certainly in the academic side--on that as 
opposed to broadly.
    And so we only have the first order a single approach in 
academic circles--that has been largely a single faculty 
member.
    Mr. McNerney. You were talking about sort of an agenda. If 
it is a single agency, it tends to be agenda driven rather than 
giving a diverse set of rules?
    Dr. Reed. Right. You would like multiple goals, multiple 
agendas, multiple kinds of approaches to select projects for 
funding because that leads to different mixes of people, 
different kinds of outcomes, and we have moved much more toward 
a single kind of outcome model where it had been a much more 
diverse model.
    Mr. McNerney. It seems to me that if you have a well-run 
program within the NSF, it would accomplish those objectives 
rather than to try and coordinate different agencies.
    Dr. Reed. It's a balancing act for sure, and I am sure Dr. 
Greer can speak to that as well who balances that process. But 
each agency has a different culture, and its culture makes it 
easier or more difficult for it to do certain things. Some 
things are much easier to do in a Defense Department model, 
some things are much easier to do in a NSF-style model. And it 
is that culture that the agencies struggle with when we try to 
foster interagency collaboration and agency agendas versus the 
broader sort of integrated agency and defense IT research.
    Mr. McNerney. Okay. Thank you. Mr. Winter, I am interested 
in your discussion of cyber-physical systems. Could you 
elaborate a little bit on the current threat? What does that 
look like, how immediate is it, do we have tools to move 
forward aggressively on that?
    Mr. Winter. You are referring specifically to cyber attack 
on----
    Mr. McNerney. Physical cyber attack, yes.
    Mr. Winter. Cyber-physical systems are what we used to call 
embedded systems, traditionally very isolated and stand-alone 
entities. Apply control computer in an aircraft, for example, 
wasn't subject to any external influence or attack. As these 
systems evolve to a more collaborative model where they are not 
only doing hard real-time business on board the platform but 
are also participating as clients in a network, they become 
vulnerable to cyber attack, tampering. The science for cyber 
security for cyber-physical systems is really in its infancy. 
Because the systems have only recently been sort of opened up 
and made accessible because of their need to again service 
clients on network, we are just in the early days of beginning 
to really take on the cyber attack threat for these kinds of 
systems.
    Mr. McNerney. Well, I guess my time is expired, so I will 
yield back.
    Chairman Gordon. The gentleman's time has expired, and Ms. 
Edwards is recognized.
    Ms. Edwards. Thank you, Mr. Chairman. Just one question. I 
mean, each of you raised the issue of technical capacity, 
training, where are the professionals for the future, and going 
to this question around cyber security, I read an article 
yesterday about the use of virtualization, particularly in the 
retail industry. And I wonder what the impact is, specifically 
as you just mentioned, Mr. Winter, of the idea of 
virtualization in these systems where you are trying to achieve 
efficiency and, you know, monitor operations but how vulnerable 
does that leave us to cyber attacks and what capacity do we 
have to address emerging issues in technology? It just seems 
like there is one every day around security. What is the 
capacity we have right now to address those emerging issues 
given the lack of capacity in the industry and in the federal 
sector?
    Mr. Winter. I think we do have a capacity issue. 
Information assurance specialist is one of the most sought-
after and rare commodities from a field personnel standpoint in 
our industry. We have a few, and we bend over backwards to keep 
them with us. It is a small and slowly growing pool of 
specialists, and I think the lack of collective training and a 
qualified workforce in that area is a real threat to our 
business. And to many other business, the financial sector, 
other aspects of our national IT infrastructure.
    Ms. Edwards. Dr. Reed, do you have a----
    Dr. Reed. Oh, I have to agree with Mr. Winter. There is a 
shortage of talent in this area, and as I said, because so many 
of our everyday objects now include embedded intelligence and 
network connections, there are substantial challenges here. 
Microsoft, for example, has made trusted computing a major 
initiative, to look at how to make software more robust because 
as you have observed rightly, it is subject to a wide range of 
attacks every day. Part of this is an inevitable consequence 
that software permeates almost everything, but it is also an 
absolute hard fact of the original question that Representative 
Gordon asked about the challenges we face in building large 
complex infrastructure and the underlying research issues 
behind those. This is one example of the manifestation of that 
struggle to build systems from first principles that are 
reliable and secure, and the struggle is to retrofit security 
systems as we discover vulnerability. But there are major 
research issues here, workforce issues, and other venues people 
have testified, and there are new programs to advance the state 
of cyber security research under way now but there is a lot of 
work to do without that.
    Ms. Edwards. And so then to each of you, I mean, how do you 
then prioritize where the allocation needs to go for research 
and development, what areas, because it seems very expansive 
and you know, it is clear from your earlier testimony, 
obviously we haven't been able to fund everything and we won't.
    Dr. Stewart. Funding everything is clearly beyond reason, 
but I do think it is important to break up the funding 
portfolio and look at it in terms of a variety of topics. 
Cyber-physical systems, basic research and networking, research 
networks in support of research in other areas cyber 
infrastructure, production cyber infrastructure delivered 
today, and the development of new cyber infrastructure for 
tomorrow. And the threads of those research and development 
activities need to go on continually so that the expertise that 
we build up which is so precious gets retained in these 
programs, and then while building the better workforce is, you 
know, a 20-year process, from a 10-year-old to a 30-year-old 
seasoned professional, looking at the long range and really 
focusing on, okay, we recognize that today there shortages of 
workforces. There are short-term measures that can be put into 
place that will aid that in the short run, but really 
fundamental efforts as Dr. Reed has already mentioned have to 
be put into encouraging young people in the United States to 
pursue careers in networking information technology.
    Ms. Edwards. Thank you, Mr. Chairman.
    Chairman Gordon. I thank you for your value added, Ms. 
Edwards, you bring to our committee.
    Mr. Hill, you are recognized for five minutes.
    Mr. Hill. Thank you, Mr. Chairman, and I want to thank the 
panel members for being here this morning, in particular Dr. 
Stewart, who is not only chairman of CASC but is also the 
Associate Dean at the greatest university in the history of the 
world, Indiana University. Dr. Stewart, it is great to have you 
hear today. Dr. Stewart, you mentioned in your testimony the 
importance of consistency, and I want to return to that issue. 
Are you suggesting that there are inconsistencies in funding 
that are occurring?
    Dr. Stewart. I think if you look back at the past several 
years of funding in NITRD as implemented by the participating 
agencies, there have been recognitions of areas where 
additional funding is needed, and funding has been propped up 
in one area at sometimes the expense of other areas; and that 
oscillation in funding really creates difficulty in maintaining 
the expertise base among people who really desire to pursue a 
career in publicly funded networking information technology 
research. If a program is eliminated or funding is temporarily 
suspended and a person leaves publicly funded, publicly 
oriented network information technology research, they are not 
likely to come back. That expertise is lost, and expertise as 
we have heard from I believe all four of us this morning is 
tremendously valuable.
    Mr. Hill. And this is happening?
    Dr. Stewart. This has happened. Yes. Very definitely.
    Mr. Hill. Okay. Switching gears then, one recommendation 
you make is to increase the coordination between federal 
agencies. How would you suggest that we do this or how would 
you suggest this be done?
    Dr. Stewart. Well, I think the key point is to add to the 
coordination between federal agencies and add to that more 
coordination colleges and universities, State investments and 
regional investments, and the Coalition for Academic and 
Scientific Computation and the Educause Campus 
Cyberinfrastructure Working Group just held a workshop last 
week in Indianapolis to generate new ideas specifically on this 
topic. As Dr. Reed said, a lot of these issues have to do with 
the culture of academia, and I think one of the key points is 
to make recommendations both to academia and State-funded R&D 
activities that enable them to better collaborate with 
federally led initiatives and to add to the federally led 
initiative ways that will allow that collaboration to make it 
more effective.
    Mr. Hill. Well, could the NITRD planning in coordination 
mechanism be used as a forum for this broader level of 
coordination?
    Dr. Stewart. I do indeed. I think that is actually the best 
way to begin that.
    Mr. Hill. Thank you, Mr. Chairman, I yield back.
    Chairman Gordon. Well, before we thank our witnesses, I 
just thought I would check and see if anyone wants to have an 
alternative opinion as to the world's greatest ever colossal 
university. Dr. Baird.
    Mr. Baird. I would just point out I am proud to have two 
representatives from the great State of Washington here and let 
that speak for itself.
    Chairman Gordon. Again, I want to thank our witnesses. We 
are trying to build a base of information. You have given us a 
good place to move forward. We would hope that you would 
respond to those questions that we ask as well as anything 
else. As we go through this process, you know, there are a few 
of us here but there are hundreds of thousands, if not--we 
normally have a couple of million that watch our webcast, so 
there are lots of others that are out there, and we want to 
welcome any suggestions to this very important concern. And 
this hearing is adjourned.
    [Whereupon, at 10:56 a.m., the Committee was adjourned.]
                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Christopher L. Greer, Director, National Coordination 
        Office for Networking and Information Technology Research and 
        Development (NCO/NITRD)

Questions submitted by Chairman Bart Gordon

Q1.  Are there areas of IT research that are good candidates for 
international cooperative efforts that would leverage U.S. investments 
but would not otherwise harm U.S. competitive advantages, such as being 
first to market for a new technology? What mechanisms are available, or 
could be instituted, to facilitate such international cooperative 
research?

A1. Because we live in a global digital society there are international 
implications across all areas of networking and information 
technologies (NIT). However, international cooperation is exceptionally 
important in four NIT areas.

1)  Long-term data preservation and access/sharing

    This is a vital area for international cooperation, both because 
21st century science is global and data-driven, and because many of our 
society's challenges (e.g., energy and other natural resources, climate 
change, biodiversity, and human health in a globally-connected world) 
require coordinated international data sharing and analysis.

         Current NITRD examples:

                a)  DOE/SC and NSF support international high-energy 
                physics research, including analysis of gigabytes-per-
                second data from the Large Hadron Collider (LHC) 
                located at the CERN site near Geneva. This includes 
                high-capacity optical network links to two tiers of 
                U.S. analysis sites and development by DOE/SC of new 
                and extended protocols enabling massive data 
                throughputs across broadband network links.

                b)  The NSF-supported Very Long Baseline Array (VLBA) 
                of telescopes cooperates with the European VLB Network 
                to create a global Internet telescope with 
                unprecedented resolution for distributed near-real-time 
                observation and data gathering.

         Possible NITRD cooperative partner on data issues:

                 The mission of the International Council for Science 
                (ICSU) Committee on Data for Science and Technology 
                (CODATA) is ``to promote, throughout the world, the 
                evaluation, compilation and dissemination of data for 
                science and technology and to foster international 
                collaboration in this field.'' The U.S. National 
                Committee for CODATA links the scientific and technical 
                community in the United States and the international 
                CODATA on data issues and operates within the National 
                Research Council's Board on International Scientific 
                Organizations. I have met several times with USNC 
                CODATA to share plans and information and look to 
                strengthening that link as a conduit for international 
                partnerships in the data arena.

2)  Advanced networking

    International networking cooperation is a prerequisite for seamless 
global high-speed communications, including scientific data sharing. 
The NITRD agencies thus have longstanding cooperative relationships 
with international networking organizations and the scientific networks 
of other countries, and continue to expand these partnerships.

         Current NITRD examples:

                a)  The September 28-30, 2008 Networking Research 
                Challenges Workshop (with international participants 
                from the Netherlands, Canada, Japan, South Korea, and 
                China), will be held in conjunction with a meeting of 
                the Global Lambda Infrastructure Federation (GLIF), 
                which coordinates international cooperation and 
                transparency among the world's optical networks. One of 
                the key goals of this workshop is to explore the 
                international implications of the recently-developed 
                Federal Plan for Advanced Networking (see 
                www.nitrd.gov/ITFAN-preprint-061108.pdf).

                b)  NSF's International Research Network Connections 
                (IRNC) program, includes

                        a)  The TransPacific Network (TransPac) 
                        providing connectivity among Asia, Europe, and 
                        the U.S.;

                        b)  PerfSonar, a global collaboration among 
                        national research and education networks in the 
                        U.S., Europe, Latin America, and Asia that is 
                        developing a distributed network measurement 
                        framework to improve end-to-end performance for 
                        researchers; and

                        c)  the Pakistan-U.S. Research & Education 
                        (R&E) Network connection, online as of August 
                        15, which connects Pakistan's scientific 
                        research and education community for the first 
                        time to the U.S. and global R&E networking 
                        fabric (also supported by the European Union's 
                        TEIN2 project).

                c)  NSF, through its Network Science and Engineering 
                program, has been working with the U.S. academic and 
                industrial communities to create opportunities for 
                possible federation of experimental network 
                infrastructure, participating in the National Institute 
                of Information and Communications Technology (NICT) 
                JGN2 and AKARI (Japan's new generation network testbed) 
                Symposium in Tokyo in January 2008 and the Future of 
                the Internet Conference in Slovenia in March 2008. NSF 
                staff will participate in the launch of the EC's Future 
                Internet Research and Education (FIRE) projects in 
                Paris in September 2008. A joint Japan-U.S. workshop is 
                planned for October 2008.

                d)  LSN's Joint Engineering Team (JET) provides a forum 
                for the development of operational policies and 
                practices, including security policies and responding 
                to security incidents, on the international science 
                networks.

                e)  New techniques for inter-domain signaling developed 
                under the NSF-supported DRAGON project are enabling a 
                new networking paradigm--hybrid networking--that 
                combines shared IP services with dedicated high-
                capacity capabilities for data-intensive scientific 
                research. The U.S. academic community's Internet2 
                consortium is deploying the Dynamic Circuit Networking 
                (DCN) service and ensuring international inter-
                operability through active collaboration with a peer 
                network in Europe called GEANT.

                f)  To harmonize deployment of Internet Protocol 
                version 6 (IPv6) in Federal networks with existing 
                international programs, specifically the IPv6 Ready 
                Logo program, NIST has signed Memoranda of 
                Understanding for cooperative development of test 
                materials with members of the IPv6 Forum. Forum members 
                include: Yokogawa Electric Corporation of Japan, NTT 
                Corporation of Japan, NTT Advanced Technology 
                Corporation of Japan, Yaskawa Information Systems 
                Corporation of Japan, Institut National de Recherche en 
                Informatique et en Automatique (INRIA) and the 
                University of Rennes in France, as well as the Inter-
                operability Laboratory of New Hampshire.

    These examples illustrate how individual NITRD networking 
activities are directly linked to the appropriate international 
counterparts. Through its strategic planning activities, the NITRD 
program will explore whether other organizations, such as the 
Organization for Economic Cooperation and Development (OECD) through 
its information and communication technologies activities, can provide 
mechanisms for addressing the broader international networking issues.

3)  Software engineering

    Software is pervasive in our digital world, underlying the 
operation of planes, ships, factories, and medical devices; and 
controlling critical infrastructure such as power grids and banking and 
financial systems. As these critical software applications become 
increasingly complex, the need for robust software science--theory, 
concepts, and methodology for creating, analyzing, and verifying 
software--has become a global challenge.

         Current NITRD example:

                 The Verified Software Initiative (VSI), a long-term 
                cooperative, international project directed at the 
                scientific challenges of large-scale software 
                verification. The VSI resulted from the first Verified 
                Software: Theories, Tools, Experiments Conference 
                (VSTTE) held in 2005 in Zurich as a response to Sir 
                Tony Hoare's (Microsoft Research U.K.) Grand Challenge 
                on the ``verifying compiler,'' a vision of software 
                produced with machine-verified guarantees of adherence 
                to specified behavior. International working groups are 
                in place and much work has been done, resulting in 
                multiple technologies now available to address the 
                challenge. The second VSTTE conference will be held in 
                Toronto in October 2008; agencies in NITRD's High 
                Confidence Software and Systems (HCSS) coordinating 
                group--including NASA, ONR, NSA, and NSF--are co-
                sponsors of the VSTTE conferences and/or the grand 
                challenge technical activities, such as the 
                Verification Grand Challenge. These activities also 
                draw participants from Australia, Belgium, China, 
                Denmark, France, Germany, India, Israel, Japan, 
                Switzerland, and the United Kingdom.

    This example illustrates how international cooperation can 
accelerate progress on some of the most difficult, and most pressing, 
NIT challenges of our time.

4)  Embedded and cyber-physical systems

    A modern automobile is an integrated cyber and physical system, 
relying on embedded IT to control engine functions, anti-lock braking, 
transmission, emissions reduction, vehicle stability, and entertainment 
and climate control systems. Embedded NIT systems in planes, trains, 
ships, traffic control systems, and emergency response networks are an 
essential part of our everyday experience. Ensuring that these cyber-
physical systems, are safe, effective, predictable, and reliable is 
another key global challenge.

         Current NITRD example:

                 The High Confidence Software and Systems (HCSS) 
                Coordinating Group within the NITRD Program has a 
                strong focus on cyber-physical systems. Recent 
                workshops sponsored by HCSS agencies in this area 
                include high-confidence medical devices and systems and 
                automotive safety. The HCSS group is also active in the 
                international arena, participating in events such as 
                the Cyber-Physical Systems (CPS) Week at the annual 
                multi-conference (Real-Time and Embedded Technology and 
                Applications Symposium [RTAS], International Conference 
                on Information Processing in Sensor Networking [IPSN], 
                and International Conference on Hybrid Systems [HSCC]) 
                jointly sponsored by IEEE and the Association for 
                Computing Machinery (ACM) and the upcoming Embedded 
                Systems Week (International Conference on Embedded 
                [EMSOFT], International Conference on Compilers, 
                Architecture, and Synthesis for Embedded Systems 
                [CASES], and International Conference on Hardware/
                Software Co-design and System Synthesis [CODES+ISSS]) 
                jointly sponsored by the IEEE, ACM, and the Council on 
                Electronic Design Automation. In the past month, a 
                jointly-sponsored U.S./Japan workshop focused on human-
                robot interactions, emergency robotics, and medical 
                robotics generated considerable enthusiasm for the 
                potential for collaboration among investigators.

    In summary, the HCSS group is developing both a national and 
international coordination effort in the area of cyber-physical 
systems.

Q2.  Do you have suggestions for how the U.S. could institute a public-
private research partnership to advance the capabilities of cyber-
physical systems analogous to the EU's ARTEMIS initiative? Could such 
an undertaking be planned and carried out under the NITRD program?

A2. Certain elements of the ARTEMIS model are uniquely shaped by its 
European Union context. A model launched in the U.S. is SEMATECH 
(SEmiconductor MAnufacturing TECHnology). This broad industry 
consortium, which celebrated its 20th anniversary in 2007, began with 
close partnerships with the Sandia and Oak Ridge national laboratories. 
It is credited with restoring U.S. leadership in the industry. Thus, 
public-private partnerships can have a deep and lasting impact on the 
NIT landscape. The following examples, including one from outside the 
NITRD Program, may suggest some possible starting points for new, 
partnered initiatives.

         Current NITRD examples:

                a)  In addition to federal agency networking 
                organizations, the NITRD/LSN's Joint Engineering Team 
                includes Internet2 and National LambdaRail (NLR) (both 
                consortia of university network organizations), along 
                with commercial entities such as Cisco, Juniper, and 
                Sun.

                b)  LSN's Middleware And Grid Infrastructure 
                Coordination (MAGIC) Team includes representation among 
                public and private science networking organizations to 
                provide inter-operability among grid infrastructures 
                (Open Science Grid, Open Grid Forum), regional and 
                local grid organizations, university grid capabilities 
                through Educause, and commercial-sector participants 
                such as Microsoft, IBM, and HP.

                c)  NSF's Industry & University Cooperative Research 
                Program (I/UCRC) fosters partnerships between academic 
                institutions, government agencies, national 
                laboratories, and industry, including IT-related 
                research centers reported in the NITRD crosscut. (For a 
                complete list, see (http://www.nsf.gov/eng/iip/iucrc/). 
                NSF's Cluster Exploratory (CluE) initiative has 
                launched two industry-academia-government 
                partnerships--one involving IBM and Google, the other 
                HP, Intel, and Yahoo!--to provide researchers access to 
                cluster computing resources.

                d)  Since 2005, NITRD's HCSS agencies have been 
                sponsoring a national workshop series on key domains 
                for cyber-physical systems (e.g., medical systems and 
                devices, aerospace and transportation, critical-
                infrastructure and industrial-process control systems). 
                This series is expressly designed to bring together 
                public- and private-sector domain experts, researchers, 
                developers, vendors, and users to share their 
                perspectives and forge a common understanding on 
                research and user needs in these vitally important 
                technologies. These emerging communities of interest 
                could possibly serve as a basis for a more formal 
                partnership activity.

         Related non-NITRD example:

                 In 2005, the Department of Energy, in collaboration 
                with the Department of Homeland Security and Natural 
                Resources Canada, partnered with industry leaders in 
                the electric, oil, and natural gas sectors to design a 
                unified framework to guide control-system cyber 
                security R&D efforts and investment. The resulting 10-
                year Roadmap to Secure Control Systems in the Energy 
                Sector was published in January 2006. The newly formed 
                Energy Sector Control Systems Working Group composed of 
                public and private energy-sector leaders, has been 
                active in Roadmap implementation.

    The SEMATECH example illustrates how an initial public-private 
partnership focused on a critical NIT challenge can produce a 
successful outcome. One of the largest technical challenges in 
computing currently is how to design software that can effectively use 
multicore systems. The PCAST cited the emergence of multicore 
processors in its rationale for recommending that: ``the NITRD 
Subcommittee should facilitate efforts by leaders from academia, 
industry, and government to identify the critical issues in software 
design and development and help guide planning on software R&D.''
    NITRD agencies report the following recent initiatives in this 
area: Intel has partnered with academia to open two new scalable 
software research centers; DOD and DOE/SC have partnered with Goodyear 
and Caterpillar to develop a new set of geometry and messing tools--the 
foundation components needed to support fast problem solving on 
multiple cores; and the Council on Competitiveness is working with 
industry and NITRD agencies to organize a consortium for development of 
scalable engineering applications. Scalable software may be an area in 
which a significant level of shared public-private investment could 
spearhead technical innovation that would benefit the U.S. economy as a 
whole.

Q3.  The COMPETES Act requires the NITRD program to develop and 
maintain a research, development and deployment roadmap for high-end 
computing systems. What steps are being taken and what is the timing 
for implementing this requirement?

A3. The NITRD Program is currently in the fourth year of the five-year 
plan set forth in the May 2004 Federal Plan for High-End Computing 
developed by an interagency task force at the request of the Office of 
Science and Technology Policy. Accomplishments to date achieved by the 
NITRD agencies as called for in that Plan include: development of 
leadership-class capability HEC systems; making cycles on those systems 
available to the broader private-sector research community for cutting-
edge computational R&D projects; revitalization of R&D in HEC systems 
software through the HEC-University Research Activity HEC-URA); and 
collaboration on methods to streamline federal procurements and develop 
system bench-marking and evaluation tools that specifically address 
federal requirements.
    Under the NITRD strategic planning process, all of the Program's 
research areas including HEC will develop new research plans and 
technical roadmaps coordinated with the overall vision laid out in the 
NITRD Strategic Plan. The timeline for these activities is presented in 
Appendix 3 of my written testimony.

Q4.  One of PCAST's recommendations is for the NITRD National 
Coordination Office (NCO) to be more proactive in communicating with 
outside groups. Was this a fair criticism of the NCO and do you intend 
to make any changes related to the recommendation?

A4. We do not view the PCAST's recommendation as a criticism. It 
acknowledges the reality that the NCO must keep evolving in tandem with 
the evolution and maturation of the NITRD enterprise as a whole; PCAST 
has provided an opportunity for us to accelerate our efforts in a 
direction we were already headed. I've mentioned NCO-supported outreach 
efforts through the LSN teams and the HCSS workshop series. Another 
strong example is the monthly Expedition Workshop series co-sponsored 
by NITRD's SEW Coordinating Group. These workshops supported by NCO 
draw upwards of 100 participants spanning government, academia, and 
industry in an ongoing dialogue about ways to harness emerging 
technologies to improve public and private services for citizens. It is 
notable, for example, that the workshops have spawned more than a dozen 
professional Communities of Practice across the Federal Government, 
several of which have developed data standards adopted by the Office of 
Management and Budget under the Federal Enterprise Architecture. An 
automated emergency alert technology incubated in the workshops won 
OMB's Federal Innovation of the Year award.
    The R&D coordination responsibility assigned to NITRD under the 
Comprehensive National Cybersecurity Initiative (CNCI) has at its core 
outreach to and close partnerships with the private sector. To 
accelerate the advance of new cyber security technologies toward 
commercial implementation, as called for under CNCI, the NCO must work 
aggressively to help agencies forge innovative working relationships 
with private-sector researchers, developers, vendors, and technology 
users. We have already taken key outreach steps, including having NCO 
staff schedule meetings with industry officials during office travel, 
and contacting industry representatives to participate in forthcoming 
high-level brainstorming sessions with federal cyber security managers.
    It is my expectation that the NITRD Program's strategic planning 
process itself will identify additional opportunities for private-
sector outreach. Several outreach efforts--a request for public inputs, 
a web site for public discussion of these inputs, and a national 
workshop--are already incorporated into our activities to develop the 
Strategic Plan for NITRD. In addition, I anticipate that the parallel 
strategic plan we will develop for the NCO, as called for by the PCAST, 
will specifically address new forms of NCO outreach activity in support 
of the NITRD Strategic Plan.

Q5.  Dr. Stewart described examples of collaborative distance education 
to provide computer science related courses to students at institutions 
that may not have strong programs in this field as one way to attract 
more students to information technology careers. He suggests increased 
support for such programs could be particularly valuable in increasing 
the number of information technology professionals from under-
represented groups. To what extent are such collaborative distance 
education programs now supported under the NITRD program, and are there 
any impediments to increased funding for such activities?

A5. While broad implementation of education delivery systems lies 
outside the NITRD Program's core mission, the R&D activities under the 
program have resulted in many of the technologies and resources that 
enable distance-education, supported research in best practices and 
approaches, and examined the social and behavioral implications of 
remote learning and virtual interaction. The NITRD Program and its 
predecessors have been the vanguard of the technological revolution 
that made distance learning possible and that continues to enrich its 
capabilities. The NITRD agencies including DARPA, NASA, NIH/NLM, and 
NSF (as well as the Library of Congress and the National Endowment for 
the Humanities) played a lead role in developing the enabling 
technologies for the concept of digital libraries and supporting the 
creation of the first generation of major digital collections of human 
knowledge and artifacts. Today, we take for granted that written works, 
art, and historical artifacts are accessible to us online; in 1994, 
when the NITRD agencies initiated their digital libraries activities, 
such access was a dream.
    Examples of technologies applied in distance learning that 
originated in NITRD research include: modeling and simulation of 
experimental data; haptic devices for remote manipulation of 
instruments and visualizations; the Visible Human series of images of 
the human body; multi-modal computer interfaces and interactive 
devices; hyperwall technologies; grid technologies, applications, and 
services; and wireless, hybrid, and all-optical networking 
technologies, to name only a few.
    The National Science Foundation--with its broad mission of support 
for STEM education as well as for academic science and engineering 
research--sponsors an array of formal distance-learning activities, 
including projects reported under the NITRD crosscut. Under a recent 
NSF award to the University of Houston, Downtown, The American Indian 
Higher Education Consortium (AIHEC), the Hispanic Association of 
Colleges and Universities (HACU), and the National Association for 
Equal Opportunity in Higher Education (NAFEO) propose to establish the 
Minority Serving Institutions (MSI)-Cyberinfrastructure (CI) 
Empowerment Coalition (MSI-CIEC) to foster a CI-enabled distributed 
education and research network providing e-science education and 
research opportunities to MSI faculty and students. MSI-CIEC will 
provide the ``human middleware''--the social and technological 
mechanisms facilitating the necessary communication and support 
linkages between MSI faculty and students, and researchers associated 
with e-science and CI initiatives.
    NIH supports professional distance learning through the National 
Library of Medicine's (NLM's) PubMed and Medline digital archives as 
well as through a growing assortment of biomedical image and data 
collections and networks for sharing such information. The NLM also 
supports experiments and training in telemedicine applications. The NIH 
Office of Science Education provides online resources for educators, an 
e-mentoring program for high school and college students, and career-
planning materials.
    NSA and NSF are partnering with other funders in a North Carolina 
program with distance-learning components that are applied to help 
support exceptional K-12 teachers in STEM improve their curricula by 
working with higher-education faculty and researchers. Through the 
Kenan Fellows Program (KFP) for Curriculum and Leadership Development, 
the competitively selected teachers spend two years conducting 
experiments with researchers and developing new curriculum ideas and 
techniques based on their work.

Non-NITRD examples:

    Though not part of the NITRD crosscut, NASA operates what is 
perhaps the Federal Government's most vibrant distance-learning 
activity, in that the agency has incorporated outreach by means of 
advanced digital technologies into its real-time explorations of Earth 
and space, including vast archives of scientific images and broadcasts 
from space. Microsoft's WorldWide Telescope and Google Sky are 
innovative tools for experiential learning enabled by the data 
resources of the Sloan Digital Sky Survey, the Hubble Space telescope, 
the Wilkinson Microwave Anisotropy Probe, and the IRAS (infrared), 
Chandra (x-ray) and GALEX (ultraviolet) missions.
    Although it is not part of the NITRD crosscut, the Information 
Resources Management College of DOD's National Defense University 
offers 50 graduate-level courses that can be taken in a ``distributed 
learning'' format. These courses focus on various aspects of 
information technology leadership leading to certificates for CIO, 
including: Information Assurance, IT Project Management, Organizational 
Transformation, and Enterprise Architecture. These courses are 
available to Federal, State, and local government employees who are 
college graduates, and to government contractors. This provides an 
excellent example of how the NITRD agencies are using distance learning 
capabilities to meet their own education and training needs.
    As noted in my written testimony, we are incorporating education 
issues in the NITRD strategic planning process, and have initiated a 
fast-track study of NIT education as recommended by PCAST. In addition, 
NITRD's SEW Coordinating Group will hold a workshop September 16, 2008 
to bring together representatives of Federal agencies, including non-
NITRD agencies, with responsibilities in the education arena. The 
workshop will focus on both the role of NIT in education and NIT 
workforce needs for the future. This meeting is intended to kick off an 
ongoing education activity under NITRD's strategic planning process.
                   Answers to Post-Hearing Questions
Responses by Daniel A. Reed, Director, Scalable and Multicore 
        Computing, Microsoft Corporation

Questions submitted by Chairman Bart Gordon

Q1.  Are there areas of IT research that are good candidates for 
international cooperative efforts that would leverage U.S. investments 
but would not otherwise harm U.S. competitive advantages, such as being 
first to market for a new technology? What mechanisms are available, or 
could be instituted, to facilitate such international cooperative 
research?

A1. This is an extraordinarily complex problem, given the global nature 
of information technology and the role that U.S. multinational 
computing companies play around the world. As with all technologies, 
one must chose carefully, leveraging the intellectual value of 
international collaboration, while avoiding the loss of competitive 
advantage in the U.S.
    In an increasingly competitive environment, it is unlikely, 
however, that the U.S. will maintain intellectual leadership in all 
areas of computing. Thus, in certain areas, it is in our interests to 
collaborate. For example, the European Union is now highly competitive 
with the United States on formal verification and embedded systems 
research.
    In addition to specific technology areas, one might focus on the 
applications of computing to international problems, climate change, 
the environment and global health and nutrition. In these domains, 
there are many computing research challenges, including data management 
and mining, software and computer architecture. This is just one area 
where international collaboration might benefit the U.S.
    Regardless of the chosen areas, one must remember that the benefits 
from research accrue disproportionately to the Nation in which that 
research is performed. Because information, such as advancements in 
basic science, is most easily communicated through interpersonal 
interactions, having those interactions occur within our borders makes 
it much more likely that U.S. industry will capitalize on those 
advancements.

Q2.  Do you have suggestions for how the U.S. could institute a public-
private research partnership to advance the capabilities of cyber-
physical systems analogous to the EU's ARTEMIS initiative? Could such 
an undertaking be planned and carried out under the NITRD program?

A2. Yes, such an undertaking is possible. ARTEMIS is structured around 
the European Union R&D processes, with much tighter academic and 
industry collaboration than is typical in the U.S. To be globally 
competitive, I believe the U.S. must reconsider some of the ways 
industry-academic collaborations are currently structured and reassess 
the reward metrics and associated intellectual property mechanisms.
    Moreover, industrial-academic partnerships in U.S. have often been 
difficult given the financial focus on quarterly returns. We must 
restructure the compact among the parties in a way that industry 
invests in an appropriate share of long-term research. Microsoft, for 
example, is investing aggressively in long-term research, both via 
Microsoft Research and via external funding to academic partners.
    Cyber-physical systems span a broad spectrum, from national and 
international infrastructure to home heating and cooling controls, and 
would be a candidate for this type of partnership. This is an area 
where opportunities might be best identified by a series of focused, 
government-academe-industry workshops. The NITRD program would be best 
served by picking one or two target areas that could be defined clearly 
and focused on removing programmatic impediments to success.

Q3.  Are the R&D objectives of the NITRD program, as it is currently 
constituted prioritized appropriated and is the allocation of funding 
consistent with achieving the objectives? Are there particular research 
areas that the NITRD program is not pursuing with sufficient resources?

A3. No, not at present. We must increase investment in software and 
cyber-physical systems (see below), even if it means decreasing funding 
in some other areas.
    In addition to software, we need better tools for managing the 
explosive growth of computer-generated data. The era of the personal 
petabytes is very near, and our mechanisms for ensuring long-term data 
preservation, security and privacy are ill-suited to today's data 
volumes, much less those expected in the future. Moreover, extracting 
insight from such large volumes of distributed data remains 
extraordinary difficult.
    Finally, and perhaps most importantly, we must take a systemic, 
scalable approach to integrated computing challenges. Many, arguably 
most, of the computing R&D challenges require multi-disciplinary teams 
of computing researchers--computer architects, hardware designers, 
system software researchers, network visionaries, programming model and 
tool experts, data mining and management researchers, and domain 
experts.
    Our current research ecosystem makes it difficult to both assemble 
such teams and to sustain them long enough to mount explorations of 
systemic challenges. It was for this reason that the 1999 PITAC report 
recommended funding large-scale, revolutionary explorations--
Expeditions to the 21st Century. Such explorations, involving academe, 
government and industry, are a missing element of our research 
ecosystem and would go far to rebalance the risk-reward portfolio of 
the NITRD program in favor of more long-term, high-risk research.

Q4.  The President's Council of Advisors on Science and Technology 
(PCAST) recommends that the NITRD program provide increased support for 
research on software but does not cite specific research needs where 
the current program is deficient. Do you have recommendations for how 
the NITRD's investment in software research could be strengthened, 
assuming no substantial increases in overall funding?

A4. There are at least four major software challenges before us today; 
each is equally important.

          I.  Reliability and correctness of large software systems. 
        Much of our critical national infrastructure and our daily 
        lives depend on software systems--our financial markets, 
        communication systems, electrical power grid, transportation 
        infrastructure, signals intelligence, commercial web services 
        and enterprise software. Our lives and even our identities are 
        dependent on software systems that manage information and 
        infrastructure on our behalf, yet we do not have good methods 
        to ensure the reliability of these systems or to design them to 
        operate correctly--on time and on budget.

         II.  Cyber-physical system software models and tools. In some 
        sense, cyber-physical systems are a special case of the first 
        challenge, albeit with greater coupling of sensors, actuators 
        and communication via wired and wireless networks. From an 
        implanted pacemaker to the electronic fuel injection and anti-
        skid brakes in today's automobiles though avionics in a 
        military or commercial jet, cyber-physical systems touch us 
        minute-by-minute. These distributed systems are ubiquitous, 
        because their advantages are manifold, but also difficult to 
        design and validate, given their complexity and the 
        interdependence among disparate components. Moreover, failure 
        of one system component can have far-reaching and often 
        disastrous consequences. (Consider, for example, the global 
        effects of a single design failure in a commercial jet's 
        avionics system.)

        III.  Security, privacy and resilience in an uncertain world. 
        Almost all of our critical data--personal, corporate and 
        government--reside in distributed data systems and networks. 
        Many of these systems are vulnerable to cyber attacks and to 
        malicious behavior. We must develop tools and techniques to 
        design more resilient systems, and ones that are provably 
        secure.

         IV.  Efficient and easy-to-use tools for multicore 
        programming. For over thirty years, we have been the 
        beneficiaries of a virtuous cycle of new and richer computing 
        systems, powered by ever faster microprocessors. Each new 
        generation of processors executed old software faster and 
        enabled new capabilities--graphical interfaces, speech 
        recognition systems and mobile devices.

             Today, device power limits are forcing a new approach to 
        chip design--placing multiple processors on each chip. Such 
        multicore systems pose daunting challenges for software 
        development, requiring parallel programming to deliver high 
        performance on new applications. However, we lack the necessary 
        tools that would enable software developers to exploit these 
        multicore processors easily and effectively. This multicore 
        programming crisis is one of the deepest facing the commercial 
        software industry today, and inadequate research investment in 
        years past is one of our current problems.

    Unless we find solutions to these problems--and soon--not only will 
we risk catastrophic failure of critical national infrastructure, the 
virtuous cycle of hardware-software innovation that has driven the 
computing industry will be threatened. Some of these, such as ensuring 
correctness and reliability in large, complex software systems, are 
longstanding. Others, such as multicore programming, are more recent.
    In a fixed budget scenario, we must reallocate funds from other, 
lower priority R&D activities and better manage and coordinate extant 
investments to increase efficiencies by eliminating redundant 
activities.

Q5.  Does the research community--both academe and industry--have a 
voice in influencing the research priorities under the NITRD program? 
Are improvements needed in the external advisory process for the NITRD 
program?

A5. Yes, but not a fully effective voice. Academe influences research 
priorities via workshops and joint meetings with the NITRD program 
agencies, but the relative investments in specific technical agendas 
are more often driven by agency needs than by community priorities. The 
NSF, as a research agency, is perhaps the most responsive to community 
priorities but even there proposals for specific budget allocations are 
rarely discussed with the community.
    On the industry side, there are fewer mechanisms for community 
engagement with NITRD agencies. In general, industry trade associations 
tend to represent short-term issues, rather than the basic research 
topics central to the NITRD portfolio. Individual companies do engage, 
but do so carefully lest they be viewed as advancing parochial 
interests.
    I believe we must have greater coordination across the government-
academic-industry partnership. Our international competitors recognize 
the critical importance of such partnerships. We cannot afford to 
continue to treat the three partners as arms-length collaborators. 
Hence, we need much more than pro forma workshops and meetings which 
``rubber stamp'' extant agendas if we are to maintain our competitive 
position. We also need to find new ways for collaborative technical 
partnerships across government, academe and industry, including honest 
assessments of intellectual property issues.
    PCAST recommended that the NITRD program increase its strategic 
planning and define roadmaps for realizing the strategic plans. These 
planning exercises, together with public assessments of progress 
against the plans, would be an ideal mechanism to engage academe and 
industry to regularly scheduled assessments and recommendations.
                   Answers to Post-Hearing Questions
Responses by Craig A. Stewart, Chair, Coalition for Academic Scientific 
        Computing; Associate Dean, Research Technologies, Indiana 
        University

    Note: these responses are presented by Dr. Stewart on behalf of 
CASC. These responses have been endorsed by a majority vote of CASC 
members, without dissensions.

Questions submitted by Chairman Bart Gordon

Q1.  Are there areas of IT research that are good candidates for 
international cooperative efforts that would leverage U.S. investments 
but would not otherwise harm U.S. competitive advantages, such as being 
first to market for a new technology? What mechanisms are available, or 
could be instituted, to facilitate such international cooperative 
research?

A1. As a general approach to networking and information technology, 
CASC recommends focusing on international collaboration efforts that 
will set standards for inter-operability. Examples include standards 
set by the Open Grid Forum (http://www.ogf.org/) for grid computing and 
international standards for networking. Over the next several years, 
two areas should be priorities:

        <bullet>  Advanced optical networking standards and techniques 
        for high-bandwidth connections (e.g., greater than 40 gigabits 
        per second), techniques for dynamic creation of dedicated 
        networks in support of virtual organizations, and development 
        of sensor networks for environmental and resource monitoring.

        <bullet>  Identity management--particularly creation of 
        national online identity management systems for research 
        cyberinfrastructures, and the creation of international trust 
        relationships between such systems where appropriate. This 
        would greatly facilitate international collaboration across 
        many areas of science and technology. One example would be 
        establishing InCommon (http://www.incommonfederation.org/) as 
        the definitive U.S. credential management system for research 
        IT (as CASC has previously recommended).

    Such efforts might be funded via international collaboration of 
U.S. federal funding agencies and the European Union Research Framework 
Programme (http://cordis.europa.eu/fp7/home<INF>-</INF>en.html). A 
joint call with issues by the U.S. and the EU Research Framework 
Programme, and joint funding, would be a highly effective way to 
promote international collaboration in networking and information 
technology.
    The creation of internationally accepted standards for inter-
operability of networking and information technology systems is 
essential to the U.S. and to its ability to cooperate internationally. 
We believe that the U.S. then competes by developing the best 
implementations of information technology, the most effective cyber-
physical systems, and the most effective interaction of simulation via 
computer and verification through experimentation. In this way the U.S. 
can collaborate when appropriate, and compete (and win) when competing 
is appropriate.

Q2.  Do you have suggestions for how the U.S. could institute a public-
private research partnership to advance the capabilities of cyber-
physical systems analogous to the EU's ARTEMIS initiative? Could such 
an initiative be planned and carried out under the NITRD program?

A2. The ARTEMIS initiative is an excellent model, and establishing a 
partnership based precisely on this model could and should be carried 
out under the NITRD program. A critical element for success of such a 
program in the U.S. would be to fund time for U.S. academic researchers 
to work as part of such collaborative efforts. The most valuable 
commodity brought to private-public partnerships is the time of the 
public sector experts and researchers. U.S. university and college 
technology transfer offices tend to focus on intellectual property 
outcomes resulting from collaborative research before such research is 
even initiated. These negotiations are a significant obstacle to 
public-private collaboration. This situation arises in part as a result 
of the interpretations of the Bayh-Dole Act. For a public-private 
partnership modeled on ARTEMIS to be most effective, it might be 
helpful to include specific terms in a solicitation (with, if needed, 
accompanying legislation) that facilitates partnership and innovation 
by establishing clear guidelines for technology transfer to the private 
sector and rights to and payment for same.

Q3.  Are the R&D objectives of the NITRD program, as it is currently 
constituted, prioritized appropriately and is the allocation of funding 
consistent with achieving the objectives? Are their particular research 
areas that the NITRD program is not pursuing with sufficient resources?

A3. The prioritization recommended in the PCAST report is, overall, 
appropriate. (I note that in the written testimony CASC added increased 
focus on complexity-hiding interfaces such as Science Gateways as a new 
area for emphasis that has come to the fore since the PCAST report).
    However, the objectives set forth in the PCAST recommendations 
cannot be carried out effectively, in ways that preserve U.S. 
international competitiveness, without substantial increases in the 
NITRD budget.
    CASC recommends a significant increase in the NITRD budget, with 
focus particularly on three areas:

        <bullet>  Creation of a national research cyberinfrastructure 
        as an interagency activity. Such a national cyberinfrastructure 
        should have significantly greater capability than the aggregate 
        of the various federal agency initiatives. We echo and support 
        particularly Dr. Reed's testimony on the point of interagency 
        funding balance. Because there are multiple large-scale 
        cyberinfrastructure efforts, and because none of the 
        cyberinfrastructure systems are yet straightforward enough for 
        most researchers to use, the number of researchers currently 
        using such advanced facilities is in the low tens of thousands. 
        U.S. global competitiveness would be best supported if hundreds 
        of thousands of researchers could use these facilities.

        <bullet>  Rebalancing the NITRD budget so that a relatively 
        greater fraction of overall funding is devoted to software 
        development. Three areas stand out in particular: development 
        of parallel programming tools and applications for multicore 
        processors; hardening and sustainability of software critical 
        to the Nation's research; and funding for the creation of 
        complexity-hiding interfaces such as Science Gateways. Because 
        most existing software does not efficiently exploit the power 
        of multicore processors, and because there is insufficient 
        funding for development of new multicore programming tools and 
        applications, much of the power of multicore processors goes 
        unexploited in computing systems ranging from laptops to the 
        largest supercomputers. Because there is insufficient funding 
        for hardening of innovative software, and its maintenance as a 
        general tool for public sector research, much innovative and 
        useful software is not as widely (or as long) used as it could 
        or should be. And the lack of sufficient funding for the 
        development of complexity-hiding interfaces is one of the 
        primary factors behind the difficulty U.S. researchers have in 
        using current NITRD-funded cyberinfrastructure. U.S. research 
        competitiveness suffers as a result of all of these factors.

        <bullet>  Increased attention to training and development of 
        the next generation of researchers and programmers. We note in 
        particular that parallel computing--one of the most difficult 
        forms of computing for programmers to master--has migrated from 
        what was once a tiny niche of the computing market into the 
        overwhelming majority of computing systems, from mainframes to 
        laptops, and soon into cell phones as well. At colleges and 
        universities worldwide, computer science departments are 
        uncovering serious deficiencies in their ability to teach 
        parallel computing. Because of lack of training, there is more 
        important work to be done than there are researchers and 
        programmers available in the U.S. to do it. That means that 
        important work is either not done at all or is done outside the 
        U.S.

    I note that it is likely rare that any concerned individual or 
group representative appears before Congress and states ``the area in 
which we work receives too much money'' or even ``the area in which we 
work is properly funded.'' CASC's recommendation for an increase in the 
NITRD program is not intended to be self-serving, however. The areas in 
which increased funding is most critically needed (expanded national 
cyberinfrastructure, and even greater expansion in funding for software 
and education and training) are needed so that the networking and 
information technology can better serve the other U.S. communities and 
research disciplines. The need is severe as well. The funding needed to 
ensure U.S. leadership in networking and information technology 
innovation, and the application of these innovations in ways that 
maintain U.S. global leadership, is not a few percentage points but 
rather on the order of hundreds of millions of dollars. We recognize 
that there are many pressures on the federal budget. Maintaining U.S. 
global leadership in networking and information technology is essential 
to the long-term U.S. security and prosperity. Increased investment is 
essential now.

Q4.  The President's council of Advisors on Science and Technology 
(PCAST) recommends that the NITRD program provide increased support for 
research on software but does not cite specific research needs where 
the current program is deficient. Do you have recommendations for how 
the NITRD's investments in software research could be strengthened, 
assuming no substantial increases in overall funding?

A4. Let me begin by reiterating the point made in response to an 
earlier question: the objectives set forth in the PCAST recommendations 
cannot be carried out effectively, in ways that preserve U.S. 
international competitiveness, without substantial increases in the 
NITRD budget.
    Having said that, CASC suggests that the following specific areas 
of software research are currently inadequate and should be 
particularly strengthened:

        <bullet>  Programming languages, compilers, run-time 
        environments, and performance analysis and management tools, 
        particularly for parallel computing using multicore processors.

        <bullet>  Complexity-hiding interfaces, such as Science 
        Gateways, so that the benefits of advanced networking and 
        information technology systems may be more easily used by the 
        U.S. science and engineering communities.

        <bullet>  Software for management and analysis of massive data 
        sets and real time data streams, including automated metadata 
        creation, provenance management, and real time analytic and 
        visual analysis tools.

        <bullet>  For advanced simulation and prediction software, 
        increased funding for interdisciplinary research that will test 
        simulations and predictions against real life phenomena and 
        improve software accuracy and validity as a result.

        <bullet>  Across all areas of software research, funding for 
        the transformation of innovative software into software that is 
        robust, widely usable, well supported, and maintained over 
        time. This recommendation echoes my testimony on the point of 
        consistency in funding streams over time and its importance in 
        preserving the human capital and expertise required to keep 
        software useful over time. Within the trio of research, 
        development, and delivery, U.S. competitiveness in the future 
        will be critically dependent upon more funding for development 
        and delivery.

Q5.  Does the research community--both academe and industry--have a 
voice in influencing the research priorities under the NITRD program? 
Are improvements needed in the external advisory process for the NITRD 
program?

A5. The Committee on Science and Technology's hearing of 31 July was an 
excellent opportunity for the research community to comment on the 
priorities of the NITRD program, and we very much appreciate that 
opportunity.
    The research community has a voice, particularly through PCAST, but 
it is a voice that is less focused on networking and information 
technology--and thus less strong--than during the tenure of the 
President's Information Technology Advisory Committee. We thus 
recommend the re-creation of a President's Information Technology 
Advisory Committee to add to the advisory input that is currently heard 
via the excellent work of PCAST.
                   Answers to Post-Hearing Questions
Responses by Don C. Winter, Vice President, Engineering and Information 
        Technology, Phantom Works, the Boeing Company

Questions submitted by Chairman Bart Gordon

Q1.  Are there areas of IT research that are good candidates for 
international cooperative efforts that would leverage U.S. investments 
but would not otherwise harm U.S. competitive advantages, such as being 
first to market for a new technology? What mechanisms are available, or 
could be instituted, to facilitate such international cooperative 
research?

A1. We believe that there are several areas that would be good 
candidates. The areas of High End Computing Infrastructure and 
Applications (HEC l&A). High End Computing R&D, Human Computer 
Interactions and Information Management (HCI & IM), and Large Scale 
Networking (LSN) are good candidates for international cooperative 
efforts. They are rich in pre-competitive research challenges and offer 
substantial leverage opportunities and potentially significant cost 
savings. International cooperative research might be facilitated 
through the creation of joint projects addressing ``grand challenges.'' 
Targeted expenditures for international collaboration are already in-
place at NSF--however, we are not aware of metrics that enable us to 
assess the leverage or potential cost savings to development programs 
of these collaborations.

Q2.  Do you have suggestions for how the U.S. could institute a public-
private research partnership to advance the capabilities of cyber-
physical systems analogous to the EU's ARTEMIS initiative? Could such 
an undertaking be planned and carried out under the NITRD program?

A2. We believe that this could be achieved by creating Industry/
University Consortia to perform pre-competitive research on industry-
provided testbeds. The ``industrial strength'' fidelity of the testbeds 
is critical to ensuring that the research focuses on the highest 
payback elements of the problem space of cyber-physical systems. 
Consortia focused on more applied levels have been highly successful 
and include USCAR (U.S. Council for Automotive Research) and AVSI 
(Aerospace Vehicle Systems Institute).
    Fundimg for the consortia could be assembled from: 1) Industry: 
Internal Research & Development; 2) Academia: Government; 3) Testbed--
Government.
    We propose a model based upon joint work of integrated projects as 
opposed to loose/spontaneous collaborations. While the latter model can 
sometimes produce important benefits, we believe the focus needs to be 
the synergistic development of fundamental science directly motivated 
and evaluated on realistic challenge problems from industry. In this 
rapidly evolving field where time and resources are limited, this is 
the most effective way to build a core technology base. Knowledge and 
technology is best transitioned by people working on well defined 
problems using industrial strength testbeds.
    While it is possible that this activity could be carried out under 
NITRD, it is not clear that there are existing mechanisms for 
accomplishing this. From our perspective, a task force consisting of 
representatives from industry and academia should be created to examine 
potential models, and recommend the appropriate structure within the 
next 90 days. A further recommendation is that task force leadership 
should be provided by industry to emphasize the need to consider novel 
organizational and execution models.

Q3.  Are the R&D objectives of the NITRD program, as it is currently 
constituted, prioritized appropriately and is the allocation of funding 
consistent with achieving the objectives? Are there particular research 
areas that the NITRD program is not pursuing with sufficient resources?

A3. From our perspective the R&D objectives, as indicated by funding 
levels, are not optimally prioritized. Nearly 50 percent of the FY 2008 
and 2009 NITRD budgets ($1.5B out of $3.3B in FY08) are allocated to 
High End Computing (Architecture, Infrastructure, and R&D). HEC is not 
at present an area where we feel U.S. competitiveness is at stake. 
Expenditures for Human Computer Interaction and Information Management 
($0.8B) also appear out of proportion relative to the need and 
potential gains in research and competitiveness to be attained. The 
PCAST correctly pointed out the need to substantially increase the 
level of spending on CPS--which is not even explicitly mentioned among 
the programs in NITRD budget documents.
    We believe that CPS should be included as a separate program under 
NITRD since this would provide transparency of budget allocations to 
this critical technology area. Fundamental research progress in CPS 
will have long-term benefits to assuring competitive position in 
Aerospace, Automotive, Energy Management, Health and other areas. 
Furthermore, the low level of funding for High Confidence Software and 
Systems (HCSS) ($0.12B), and Software Design & Productivity (SDP) 
($0.073B) do not adequately address the needs and challenges for CPS, 
and are insufficient to stimulate breakthroughs required, especially in 
large scale CPS systems common to DOD and commercial Aerospace and 
Energy applications.
    We are also concerned about the isolation of Cyber Security and 
Information Assurance (CSIA) from the systems domains (HCI & IM, LSN, 
HCSS, SEW, SDP). CPS must include an essential CSIA program element 
because of the unique vulnerabilities and consequences associated with 
the target industries. What we need is CPS focused R&D in CSIA, tightly 
integrated with all other research challenges.

Q4.  The President's Council of Advisors on Science and Technology 
(PCAST) recommends that the NITRD program provide increased support for 
research on software but does not specify research needs where the 
current program is deficient. Do you have recommendations for how the 
NITRD's investment in software research could he strengthened, assuming 
no substantial increases in overall funding?

A4. A number of workshops have been conducted since 2005, led by Dr. 
Andre Van Tilborg (Director of the Information Systems Directorate in 
the Office of the Deputy Under Secretary of Defense for Science and 
Technology) that sought Government, Industry, and Academic perspectives 
on Software Intensive Systems. The workshops highlighted the clear need 
and established a framework for a software research agenda. The 
aerospace industry in particular (Boeing, Lockheed, Raytheon, Northrop, 
BAE, Honeywell, among others) presented a common perspective on the 
need and benefits of testbed driven software research. Elements of the 
research agenda are published in a study on Ultra Large Scale Systems. 
While the total level of NITRD investment may be adequate, funds should 
be shifted from HEC and HCI & IM to CPS focused investments in HCSS, 
Cyber Security, and Software Design due to its significantly larger 
impact on U.S. competitiveness. In addition, increased investment in 
these areas holds significant potential for reducing costs for DOD CPS 
software developments.

Q5.  Does the research community--both academe and industry--have a 
voice in influencing the research priorities under the NITRD program? 
Are improvements needed in the external advisory process for the NITRD 
program?

A5. Industry has had a very limited voice in influencing research 
priorities of NITRD program. Organizations like PCAST have influence at 
a strategic level but they have little influence in implementation. We 
believe that proactive industrial participation in shaping NITRD 
priorities and participation in the research agenda is key to achieving 
breakthroughs required.

Q6.  The top recommendation of the PCAST assessment of the NITRD 
program for new research investments is in the area of cyber-physical 
systems. You have been engaged with your colleagues from industry, 
academia, and government in discussions of research requirements in 
this field. What is the status of these discussions? Are there plans to 
develop a set of research goals and a roadmap for achieving these 
goals?

A6. The discussions on research requirements continue. Under the 
auspices of the aforementioned workshops, we have formed industry teams 
in aerospace, energy management, and automotive and are working to 
finalize technology roadmaps. The discussions were initiated in May 
2007 at a CPS roundtable conducted with representatives from industry 
(BAE, Boeing, Lockheed, Honeywell, United Technology, IBM, etc.). 
Academia (Carnegie Mellon, UCB, Vanderbilt, etc.), and Government (NSF, 
DOD, etc.). We have developed initial industrial roadmaps that need to 
be finalized and then shared with the research community at large.

Q7.  What do you see as the relative roles of industry-sponsored 
research and federally-sponsored research in moving this technology 
area forward and giving the U.S. a strong position?

A7. The major issue here is that the CPS research agenda is cross-
cutting and spans multiple industries. Much of the research required is 
of a pre-competitive nature--where industry-sponsored research dollars 
are inherently limited. The current approach of Federal Government-
sponsored research in this area has not adequately addressed 
``industrial strength'' real-world challenge problems, and not created 
significant transition pathways outside of the academic world. Greater 
industrial participation in executing the research agenda is critical 
to success and will spur the focused industrial-academic collaboration 
needed for significant progress.

                                   

</pre></body></html>
